<html>
<title> - IMPLEMENTING THE WESTERN HEMISPHERE TRAVEL INITIATIVE AT LAND AND SEA PORTS: ARE WE READY?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                  IMPLEMENTING THE WESTERN HEMISPHERE
         TRAVEL INITIATIVE AT LAND AND SEA PORTS: ARE WE READY?

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON BORDER,
                 MARITIME, AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 7, 2009

                               __________

                           Serial No. 111-18

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
55-056 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California          PETER T. KING, New York
JANE HARMAN, California              LAMAR S. SMITH, Texas
PETER A. DeFAZIO, Oregon             MARK E. SOUDER, Indiana
ELEANOR HOLMES NORTON, District of   DANIEL E. LUNGREN, California
Columbia                             MIKE ROGERS, Alabama
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            CHARLES W. DENT, Pennsylvania
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  PAUL C. BROUN, Georgia
YVETTE D. CLARKE, New York           CANDICE S. MILLER, Mississippi
LAURA RICHARDSON, California         PETE OLSON, Texas
ANN KIRKPATRICK, Arizona             ANH ``JOSEPH'' CAO, Louisiana
BEN RAY LUJAN, New Mexico            STEVE AUSTRIA, Ohio
BILL PASCRELL, JR., New Jersey
EMMANUEL CLEAVER, Missouri
AL GREEN, Texas
JAMES A. HIMES, Connecticut
MARY JO KILROY, Ohio
ERIE J.J. MASSA, New York
DINA TITUS, Nevada
VACANCY

                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Conner, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARTIME, AND GLOBAL,.COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

JANE HARMAN, California              MARK E. SOUDER, Indiana
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 MIKE ROGERS, Alabama
ANN KIRKPATRICK, Arizona             CANDICE S. MILLER, Michichgan
BILL PASCRELL, JR., New Jersey       PETER T. KING, New York (Ex 
AL GREEN, Texas                      Officio)
ERIC J.J. MASSA, New York
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                     Alison Northop, Staff Director
                          Denise Krepp Counsel
                       Carla Zamudio-Dolan, Clerk
                Mandy Bowers Minority Subcommittee Lead

                                  (ii)



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Loretta Sanchez, a Representative in Congress from 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in congress from 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     2
The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas.............................................    26
The Honorable Al Green, a Representative in Congress from the 
  State of Texas.................................................    22
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas:
  Oral Statement.................................................    50
  Prepared Statement.............................................    50
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California............................................    24
The Honorable Eric J.J. Massa, a Representative in Congress from 
  the State of New York..........................................    28

                               Witnesses
                                Panel I

Dr. Richard Barth, Acting Principal Deputy Assistant Secretary, 
  Office of Policy development, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     8
  Prepared Joint Statement.......................................     9
Accompanied by,
Mr. Thomas Winkoski, Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection:
  Oral Statement.................................................    13
Mr. John Brennan, Senior Policy Advisor, Bureau of Consular 
  Affairs, U.S. Department of State:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16

                                Panel II

Mr. Angelo Amador, Director of Immigration Policy, U.S. Chamber 
  of Commerce:
  Oral Statement.................................................    42
  Preprared Statement....................................43<plus-minus>
Ms. Maria Luisa O'Connell, President, Border Trade Alliance:
  Oral Statement.................................................    37
  Prepared Statement.............................................    38

                             For the Record

Prepared Statements:
  The Honorable Louise M. Slaughter, a Representative in Congress 
    from the State of New York, and Chairwoman, Committee on 
    Rules........................................................     5
  The Honorable Bennie G. Thompson, a Representative in Congress 
    from the State of Louisiana, and Chairman, Committee on 
    Homeland Security............................................     4
Questions and Responses:
  Questions from Hon. Loretta Sanchez, Chairwoman, Subcommittee 
    on 
    Border, Maritime, and Global Counterrorism:..................
      Responses from Dr. Richard Barth...........................    53
      Responses from Mr. John Brennan............................    55
      Responses from Ms. Maria Luisa O'Connell...................    55
      Responses from Mr. Thomas Winkoski.........................    57

 
 IMPLEMENTING THE WESTERN HEMISPHERE TRAVEL INITIATIVE AT LAND AND SEA 
                          PORTS: ARE WE READY?

                              ----------                              


                         Thursday, May 7, 2009

             U.S. House of Representatives,
              Subcommittee on Border, Maritime, and
                           Global Counterterrorism,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Lofgren, Jackson Lee, 
Cuellar, Green, Massa, and Souder.
    Ms. Sanchez. [Presiding.] Good morning. This subcommittee 
will come to order. The Subcommittee on Border, Maritime, and 
Global Counterterrorism is meeting today to receive testimony 
on ``The Western Hemisphere Travel Initiative at Land and Sea 
Ports: Are We Ready?''
    Again, thank you all for joining us. Today the subcommittee 
will receive testimony on the current status of the 
implementation of the Western Hemisphere Travel Initiative, or 
WHTI, as we call it, at our land and sea ports.
    We have two great panels this morning that would allow us 
to hear from government officials responsible for the 
implementation of WHTI, as well as representation from industry 
groups who are dealing with the implementation and how it is 
affecting their respective industries.
    I look forward to receiving your testimony and having an 
open dialogue and for you to ask our members' questions.
    The goal of WHTI is to strengthen border security while 
facilitating the entry of U.S. citizens and legitimate foreign 
visitors. Having an efficient and operable passport card 
program created by WHTI will help the United States ensure 
those who enter our country, are who they are.
    And with that said, residents of border communities, who 
have years have traveled back and forth across the border with 
really just an oral declaration in some cases back in my 
father's time, just walking across when nobody was there, will 
have to adapt new procedures for them to cross the borders to 
see family and their friends.
    I have had concerns about whether the outreach to the local 
communities along the southern and northern borders has been 
adequate. And during the implementation of the air travel 
portion of WHTI, we saw that there was a lack of public 
outreach, and it created some confusion.
    And for these reasons a few years ago, I was one of the 
people who supported the provision to delay the implementation 
of WHTI at the land and sea ports until June 1st of 2009.
    So now we have the date approaching, and the questions on 
our minds are how is the program working? Have people submit 
it? Do people know? What is the outreach? What about the surge 
factor? Are you ready for that?
    And more importantly, how is the infrastructure at the land 
borders and seaports going to be able to handle this situation? 
And how is the commerce of our country dealing with this, 
considering that Canada is our number one trading partner, and 
Mexico is our number three partner with respect to trade.
    So I am hopeful that you are going to tell me that the 
implementation is going smoothly, that you have some 
contingency plans for what we consider to be a surge. We have 
this to remember about 18 months ago when we had the deadline 
with respect to passports and how that really impacted, and 
really the State Department was not ready for that, and we 
hadn't thought through the implications of that.
    So I look forward to your testimony and for your answers to 
our questions.
    And I will recognize my very able colleague from Indiana, 
Mr. Souder, my ranking member, for his opening statement.
    Mr. Souder. Thank you, Madam Chair.
    With the Western Hemisphere Travel Initiative 
implementation date of June 1st quickly approaching, this is a 
very timely hearing. We are now 5 years since enactment of the 
Intelligence Reform and Terrorism Prevention Act, which 
included the mandate for secure travel documents for entry into 
the United States.
    On June 1st, when the implementation starts for the last 
phase of WHTI at land and sea ports of entry, we are nearly 9 
years from the terrorist attacks be for all travelers entering 
the United States are using secure documents.
    Despite the long lead time to set up this program and 
several legislative delays, I think June 1st will be an 
important milestone for homeland security that marks 
fulfillment of the 9/11 Commission recommendation.
    I would like to commend both the Department of Homeland 
Security, especially Customs and Border Protection, and the 
Department of State for implementing this important program.
    With the commendations out of the way, there are several 
issues with WHTI that I would like to raise and hope to hear 
more from witnesses during the testimony and questions.
    First, I appreciate the work that DHS has done with the 
Amish community to ensure that they maintain the ability to 
cross the border without compromising their religious beliefs 
regarding photographs. I have heard from several of my 
constituents, and they seem supportive of the alternative 
documentation.
    This situation I plan to monitor very closely, because I 
still have some concerns about secure travel documents and 
finding a solution for Canadian Amish entering the United 
States.
    Secondly, I think we must continually evaluate the security 
of all our travel documents. I agree with the message in the 9/
11 Commission report that the ability to travel is just as 
important to terrorists as is the ability to raise funds.
    It is critical that this committee follow up and ensure 
that terrorists and criminals are not able to use fake or 
forged documents to enter the United States under WHTI.
    The last concern I would like to raise involves public 
outreach and education. I was impressed by the accounts in the 
written testimony of the outreach in media conducted leading up 
to WHTI.
    I think it is important to recognize that regardless of 
what efforts you take and the amount of education outreach 
conducted, there will be growing pains. That being said, I 
would like to hear more from both panels about what is being 
done and, where possible, information gaps may exist.
    If I may add a side comment, we are running into this with 
the television conversion where it is going better than 
expected, other things where it has gone less well than 
expected. And while the information of all maybe I along the 
border--for example, my area is one tier away, and there is no 
clue, basically, of what they are faced with.
    WHTI is one tool in the layered approach to securing our 
border. I think it is an important element, but needs to be 
part of larger improvements to the border, including port of 
entry upgrades and more CBP officers, in addition to enhanced 
security between the points of entry.
    I think our second panel with the Border Trade Alliance and 
the Chamber of Commerce may provide important testimony on how 
to improve these elements. I am hopeful that this subcommittee 
will take an active role in this Congress in improving border 
security legislation to address these issues.
    Given where I think we are with the program and the 
flexible and pragmatic approach to implementation, to use words 
from your testimony, I would be very concerned about any 
further action by Congress to delay this program.
    I have heard rumors that some language may be added to the 
supplemental appropriations bill. I hope that is not true. And 
if that is, I hope the chair will join me in opposing it.
    I would like to thank all witnesses for being here, and 
they yield back my time.
    Ms. Sanchez. Other members of the subcommittee are reminded 
that under committee rules, opening statements may be submitted 
for the record.

                             For the Record

       Prepared Statement of the Honorable Bennie G. Thompson, a 
    Representative in Congress, and Chairman, Committee on Homeland 
                                Security

 Implementing the Western Hemisphere Travel Initiative at Land and Sea 
                          Ports: Are We Ready?

                        May 7, 2009 at 10:00 AM

                    311 Cannon House Office Building

    <bullet> On June 1, 2009, just a few weeks from today, the Western 
Hemisphere Travel Initiative will take effect.
    <bullet> For the first time in our history, every person entering 
the U.S. through a land or sea port of entry will need to show proper 
documentation.
    <bullet> This day has been a long time coming.
    <bullet> Just a couple of years ago, Congress was forced to delay 
implementation of WHTI (``witty'') because, simply put, the Departments 
of Homeland Security and State were not prepared.
    <bullet> So, we are here today with one simple question: Are we 
ready?
    <bullet> This Committee, and the nation as a whole, hopes you can 
answer with a resounding ``YES'' because much is at stake.
    <bullet> On a typical day, Customs and Border Protection processes 
more than 1.1 million international travelers into the United States at 
land, air and sea ports.
    <bullet> Among the overwhelming majority of legitimate travelers, 
CBP is charged with identifying and interdicting those who may seek to 
enter the U.S. to do us harm.
    <bullet> The documents required under WHTI are an important part of 
assisting CBP officers in that vital effort.
    <bullet> The program also fulfills an important 9/11 Commission 
recommendation regarding document security at our borders.
    <bullet> At the same time, it is important to remember that cross-
border travel and trade is essential to border communities and our 
nation's economy.
    <bullet> In these tough economic times, we must ensure that WHTI is 
implemented efficiently and effectively to minimize any unnecessary 
delays at our ports of entry.
    <bullet> To this end, I look forward to hearing from our government 
witnesses about how they have:
        <bullet> educated travelers about the upcoming deadline;
        <bullet> trained officers on the new document requirements and 
        procedures;
        <bullet> ramped up staffing;
        <bullet> issued WHTI-compliant documents like passports and 
        passport cards; and
        <bullet> deployed new document readers at ports of entry.
        <bullet> I also look forward to hearing from our private sector 
        witnesses about how we can ensure that the June 1 
        implementation goes as smoothly as possible.
        <bullet> From border violence to the H1N1 flu outbreak to new 
        rules for crossing our borders, America's border security 
        challenges are constantly evolving.
        <bullet> This Committee remains committed to ensuring that the 
        Department of Homeland Security has the tools it needs to meet 
        this challenge, while facilitating legitimate travel across our 
        borders.
        <bullet> I thank the Chairwoman for her leadership on this 
        issue and for holding this timely hearing.

    Ms. Sanchez. And I also ask unanimous consent to submit for 
the record a statement from Representatives Bart Stupak and 
John McHugh, co-chairs of the Northern Border Caucus \1\, and a 
statement from Representatives Louise Slaughter, who represents 
a district in western New York at Niagara Falls.
---------------------------------------------------------------------------
    \1\ [See committee file.]
---------------------------------------------------------------------------
    All three members have a keen interest in this important 
issue, so unanimous consent. They are accepted. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Sanchez. And I welcome our panel of witnesses. Some of 
you have been before us before.
    Our first witness, Dr. Richard Barth, currently serves as 
the acting principal deputy assistant secretary for the Office 
of Policy at the Department of Homeland Security. In this 
capacity he manages the department's international affairs, 
state and local law enforcement, immigration statistics, 
private sector and screening coordination offices. Mr. Barth 
joined the department in 2006, when he was appointed assistant 
secretary for the Office of Policy Development by Secretary 
Chertoff.
    Our second witness will be Mr. Thomas Winkowski, who was 
appointed assistant commissioner for the Office of Field 
Operations at Customs and Border Protection in August of 2007. 
In that position he oversees programs and operations at 20 
major field offices, 326 ports of entry and 58 operational 
container security initiative ports in Canada, Ireland and the 
Caribbean. Mr. Winkowski joined the U.S. Customs Service in 
1975.
    And our third witness, Mr. John Brennan, is a senior 
adviser in the State Department's Bureau of Consular Affairs. 
In that capacity he is responsible for a number of programs, 
including the Western Hemisphere Travel Initiative. He also 
manages the Mexico 2012 plan, which will ensure new generation 
Mexican border crossing cards to replace the five million cards 
that will expire in the next few years.
    And, gentlemen, I will remind you that your full statements 
will be inserted into the record. And I now ask the witnesses 
to summarize their statements for 5 minutes or less, beginning 
with Dr. Barth.
    Welcome again, Doctor.

 STATEMENT OF RICHARD BARTH, ACTING PRINCIPAL DEPUTY ASSISTANT 
SECRETARY, OFFICE OF POLICY DEVELOPMENT, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Barth. Thank you very much, Chairwoman Sanchez, Ranking 
Member Souder and other distinguished members of the committee.
    I am pleased to appear before you today to discuss the 
department's approach to the implementation of the second phase 
of the Western Hemisphere Travel Initiative for both the land 
and sea environments.
    As recommended by the 911 Commission, Congress moved in 
2004 to statutorily close a critical vulnerability that existed 
far too long. A significant number of individuals, U.S. and 
Canadian citizens, could present themselves for entry into the 
United States without proof of their identity and citizenship.
    I wish to assure the committee on behalf of Secretary 
Napolitano that our approach to implementing WHTI has been and 
will continue to be pragmatic, as we work to achieve the goal 
of increased security while facilitating the flow of legitimate 
trade and travel.
    In preparation for June 1st, 2009, in partnership with the 
Department of State, the governments of our western hemisphere 
partners, the border communities and other stakeholders and the 
public and private sectors, our strategy has focused on three 
main areas: the availability of documents, adequate 
infrastructure and technology, and the extensive communications 
and outreach necessary to implement the program effectively.
    And I would add that we have incorporated many of the 
helpful suggestions of groups such as the Border Trade 
Alliance. As Secretary Napolitano has noted many times, our 
partnership with private sector groups such as this is critical 
to much of what DHS does today.
    Our communications efforts began in 2004. In September 
2008, we significantly ramped up our efforts and kicked off a 
multimedia communications campaign to educate the traveling 
public about the new document requirements.
    The variety of secure WHTI-compliant documents addresses 
the needs of different travelers. The vast majority of adult 
U.S. citizens are able to present any one of the following 
documents: a U.S. passport, a passport card, a state-issued 
DHS-approved enhanced driver's license, or a Trusted Traveler 
card from our NEXUS, SENTRI or FAST programs.
    We are making other alternatives available to certain 
populations, including the merchant mariner document when on 
official business, a U.S. military ID with travel orders, or a 
WHTI-compliant enhanced tribal card.
    Since we stopped accepting only oral declarations by U.S. 
and Canadian citizens on January 31st, 2008, we began a 
transition to a more secure border and have seen a high rate of 
compliance with document requirements.
    Despite predictions that travel and trade would be brought 
to a halt with the January 31st document requirements, we have 
through phased and flexible approach implemented the changes in 
travel document requirements without causing discernible 
increases in wait times at the border.
    To be sure, however, that unexpected problems do not 
surprise us in the early days, weeks and months of fully 
implementing the WHTI document requirements, Secretary 
Napolitano will be personally monitoring the situation so that 
we can proactively work to ensure what I called for at the 
beginning of the short summary: Travel and trade facilitation 
with enhanced security at our borders.
    I have outlined in a very broad way our requirements and 
implementation efforts for the second phase of WHTI for the 
land and sea environments. I am happy to elaborate and answer 
any questions you might have. Thank you very much.
    [The joint statement of Mr. Barth and Mr. Winkowski 
follows:]

   Prepared Joint Statement of Richard C. Barth and Thomas Winkowski

    Chairwoman Sanchez, Ranking Member Souder, and other distinguished 
Members of the Committee. We are pleased to appear before you today to 
discuss how we will implement the second phase of the Western 
Hemisphere Travel Initiative (WHTI), which is both a statutory mandate 
of the Intelligence Reform and Terrorism Prevention Act (IRTPA) of 2004 
and a 9/11 Commission recommendation, to designate specific identity 
and citizenship documents that can be used to gain entry at our land, 
sea, and air ports of entry. Secretary Napolitano, along with her 
partners in other agencies and departments, is working to secure our 
homeland by strengthening our ability to accurately identify all 
persons--U.S. citizens and visitors alike--before they enter the United 
States. Our approach to implementing WHTI has been, and will continue 
to be, both pragmatic and flexible as we work to achieve the goal of 
increased security while significantly facilitating the flow of 
legitimate trade and travel.
    The initial phase of WHTI was successfully implemented for air 
travel on January 23, 2007. Since then, compliance has been and 
continues to be high--over 99 percent. This compliance was the result 
of the collaborative planning process on behalf of DHS and DOS, working 
closely with the airline industry, travel industry and the public, well 
in advance of implementation.
    We are prepared to complete this effort by successfully and 
efficiently implementing WHTI at all land and sea ports of entry on 
June 1, 2009. On February 26, 2009, the secretaries of DHS and DOS 
jointly certified to Congress that all statutory criteria had been met 
prior to implementing the WHTI at land and sea borders on June 1, 2009.
    As the 9/11 Commission's Final Report states, ``For terrorists, 
travel documents are as important as weapons. Terrorists must travel 
clandestinely to meet, train, plan, case targets, and gain access to 
attack. To them, international travel presents great danger, because 
they must surface to pass through regulated channels to present 
themselves to border security officials, or attempt to circumvent 
inspection points.''
    On January 31, 2008, we added another layer to create a more secure 
border--a border that continues to welcome legitimate travelers and 
efficiently facilitate entry into the country. It also is a border that 
inhibits entry of individuals who cannot confirm their identity and 
citizenship. In spite of warnings that taking such measures would bring 
travel and trade to a standstill, we implemented these changes in 
travel document requirements--requiring a government issued photo 
identification and proof of citizenship--without causing discernable 
increases in wait times at the land and sea borders. Compliance rates 
since requirements were initiated January 31, 2008, remain consistently 
high--well over 93 percent for United States and Canadian citizens 
queried. In fact, our surveys showed that more than six weeks in 
advance of scheduled January WHTI implementation, roughly 80 percent of 
U.S. and Canadian citizens exceeded the January 2008 requirements and 
were presenting WHTI-compliant documents when crossing the border.
    Our layered security strategy involves identifying and interdicting 
individuals attempting to harm or illegally enter the country as early 
as possible--if not before they enter our country, then at our ports of 
entry. Through its requirement that individuals carry a passport or 
other limited set of acceptable documents, WHTI will greatly reduce the 
opportunities for identity fraud or misrepresentation. Travel documents 
that were developed or enhanced specifically in response to WHTI 
include embedded, advanced technology with appropriate privacy 
protections and infrastructure. These documents allow DHS the ability 
to verify an individual's identity and perform real-time queries 
against lookout databases even before the traveler arrives at our U.S. 
Customs and Border Protection (CBP) officers' inspection booths. By 
eliminating the need to manually input data and by automating part of 
the process, implementation of WHTI allows our officers more time to 
focus greater attention on each individual traveler. WHTI provides the 
platform to implement an integrated secure land border system, and we 
have taken every step to take full advantage of that opportunity.
    The WHTI Land and Sea Final Rule, published on April 3, 2008, in 
the Federal Register, was developed after extensive consultation and 
constructive dialogue with various stakeholders, including communities 
and officials on both sides of our borders, and after carefully 
considering the more than 1,300 comments received during the public 
comment period for the Notice of Proposed Rulemaking. The policy 
decisions in this Final Rule, such as the development of special 
provisions for children and cruise lines and our approach to working 
with Native American communities on the development of a WHTI-compliant 
enhanced tribal document, reflect the valuable input we received from 
the public and stakeholders.
    In preparation for June 1, 2009, Secretary Napolitano has ensured 
that DHS has focused on three main areas--availability of documents; 
infrastructure and technology; and communications and outreach.

Availability of Documents
    WHTI compliance is not limited to a passport. DHS, through CBP, and 
DOS have offered alternatives to the traditional passport from which 
the traveling public can choose the one that best meets their travel 
needs. In addition to a U.S. passport, the vast majority of U.S. 
citizens will be able to present the following WHTI-compliant documents 
to enter the United States through a land or sea port of entry from 
within the Western Hemisphere: a passport card; an enhanced driver's 
license from an issuing state, territory or province, issued pursuant 
to an agreement with DHS; or a trusted traveler program (NEXUS, SENTRI, 
FAST) card. U.S. citizens may also present a U.S. military ID with 
travel orders, an enhanced tribal card issued by a qualifying tribal 
entity, or a merchant mariner document if on official business.
    The flexibility of the number of secure, WHTI-compliant documents 
addresses the needs of different travelers, while providing CBP 
officers at primary inspections with advance information and the 
ability to verify the information on the document with the issuing 
agency. Some citizens who already have a traditional passport book for 
travel overseas may benefit from getting a passport card as well if 
they live near one of our land borders and make frequent trips across 
the border. Individuals who frequently cross the southern border may be 
best served by obtaining a Secure Electronic Network for Travelers 
Rapid Inspection (SENTRI) card that will give them access to SENTRI-
only lanes. Some U.S. citizen border crossers might choose an enhanced 
driver's license that offers the benefits of a traditional driver's 
license but also serves as a limited use travel document.
    Most of our cross border travelers already have WHTI-compliant 
documents--more than 92 million Americans now hold a passport or 
passport card. The states of Washington, New York, Vermont, and 
Michigan have issued more than 120,000 enhanced driver's licenses 
(EDLs). The Canadian provinces of British Columbia and Quebec are 
already issuing EDLs and the provinces of Manitoba and Ontario will 
begin issuing EDLs by the end of May 2009. Our trusted traveler 
programs, NEXUS, SENTRI, and Free and Secure Trade (FAST), have more 
than 585,000 members.
    We have sent out over 600 letters to all the federally recognized 
Native American tribes and offered to work with them toward developing 
a WHTI-compliant enhanced tribal document. On March 3, 2009, CBP signed 
a memorandum of agreement with the Kootenai Tribe of Idaho to develop 
an enhanced tribal card. Upon successful development, testing and 
issuance, this document will be available to members of the Kootenai 
Tribe of Idaho to establish their identity, tribal membership and 
United States or Canadian citizenship for the purposes of border 
crossing. We look forward to working with other Native American tribes 
to develop enhanced tribal cards. This partnership is critical to the 
success of WHTI and demonstrates our commitment to listening to the 
concerns and ideas expressed by the Native American and other 
communities.

Infrastructure and Technology
    In preparation for full WHTI implementation, DHS awarded a contract 
on January 10, 2008, to begin the process of deploying vicinity radio 
frequency identification (RFID) facilitative technology and 
infrastructure to 354 vehicle primary lanes at 39 high-volume land 
ports, which process 95 percent of land border traveler crossings. As 
of April 30, 2009, RFID technology has been successfully installed and 
operational at 33 of the 39 high-volume land ports. We remain on time, 
on budget, and on track to implement WHTI as planned on June 1, 2009. 
At the remaining land and sea ports of entry, lanes are equipped with 
optical character reader technology. This technology will read any 
travel document with a machine-readable zone (MRZ), including 
passports, border crossing cards, trusted traveler cards, enhanced 
drivers licenses, passport cards, and lawful permanent resident cards.

Communications and Outreach
    CBP launched a multi-media communications campaign in September 
2008, ``Let's Get You Home,'' designed to educate the traveling public 
about new travel document requirements that will go into effect on June 
1, 2009. We are now executing the third phase of our comprehensive 
press, stakeholder, and traveler outreach effort, concentrating on 12 
major border media markets. To date, television and radio spots have 
aired more that 21,000 times and we have published 8 print 
advertisements, which have run more than 124 times. We have created a 
web site (www.getyouhome.gov) to serve as the primary source of 
information on WHTI documents and have distributed over 6 million 
educational tear sheets to travelers as they cross the border. In the 
last year, we have issued approximately 125 press releases; provided 
more than 200 media interviews; generated over 2,000 media clips; 
produced 8 television commercials in English, French and Spanish; and 
produced two public service announcements, which have aired on 280 
radio stations more than 11,700 times. We have focused on WHTI at 12 
trade shows and conduct, on average, 50 WHTI-related outreach events 
per month across the country.
    As we approach June 1, 2009, we are in the midst of conducting 
press events at every land border port, reminding the traveling public 
to apply for their secure, WHTI-compliant documents now so that they 
will have them for June 1.

Operations on June 1, 2009
    DHS is committed to implementing WHTI in a commonsense, flexible 
way that facilitates the flow of legitimate travelers and improves the 
security of U.S. borders. DHS will be practical and adaptable in its 
approach, using the same approach of informed compliance instituted 
successfully during other major changes at the borders over the last 
two years, including the January 2007 implementation of WHTI in the air 
environment, and the January 2008 end to acceptance of oral 
declarations of citizenship at the land and sea ports.
    DHS anticipates that some travelers will not have appropriate 
documents--a fact that CBP deals with on a daily basis. CBP has steps 
in place to deal with those scenarios. We expect to use our full range 
of authorities to be flexible in accommodating U.S. and Canadian 
citizens without WHTI-complaint documents in the initial phase of 
implementation.
    CBP is prepared to implement WHTI requirements on June 1, 2009, and 
we have taken the steps to ensure operational readiness on a national 
scale.
    Just last week, CBP brought together trainers, operations 
specialists, and public affairs officers from around the country to 
Arlington, Virginia, for a WHTI Implementation Conference. Our field 
personnel were thoroughly updated on policies and procedures for the 
June 1, 2009, implementation, and had the opportunity to discuss 
mitigation strategies for real-world situations that they are likely to 
encounter. In turn, these CBP trainers will ensure that all land border 
officers receive updated training and are prepared for implementation. 
A similar conference was conducted prior to January 31, 2008, and was 
highly successful in getting the message out to our frontline 
personnel.
    On May 29, 2009, CBP will establish the WHTI Operations Center at 
CBP Headquarters. This operations center will be staffed 24 by 7 to 
continuously monitor port operations before, during and after the June 
1, 2009, implementation. The center will conduct daily teleconferences 
with the field and provide immediate response to questions and 
concerns. Daily reports will be provided to senior leadership on the 
successes and challenges. Senior managers will be working at the ports 
and uniformed public affairs officers will be on-site to provide 
accurate public affairs guidance.
Potential Impact of WHTI
    Concerns have been expressed about the potential impact of the WHTI 
documentation requirements on traveler wait times at our land ports of 
entry. Allow me to emphasize that under no circumstances will CBP deny 
admission to a United States citizen, even if he or she does not 
possess a WHTI-compliant document. The risk that document requirements 
will negatively impact ports of entry in June 2009 is minimal, as the 
majority of travelers have been presenting documents for inspection at 
the border for over 16 months. Since January 31, 2008, compliance rates 
have steadily improved--more than 93 percent of U.S. and Canadian 
citizens queried while crossing the land border are in compliance with 
document requirements. Most travelers are complying with the January 
31, 2008, change in document procedures and will comply with WHTI 
requirements in June 2009. Preliminary data from on site observational 
audit studies conducted at three northern border ports and two southern 
border ports indicate approximately 80 percent of U.S. and Canadian 
citizens are already presenting WHTI compliant documents as required 
for June 1, 2009.
    Our decision to adopt vicinity RFID technology for the land border 
was based on the need to process legitimate travelers as speedily as 
possible without impacting security. After extensive review of 
available and possible technologies, DHS selected vicinity RFID as the 
best technology for our land border management system--and the standard 
to which all future land border travel documents will comply. Vicinity 
RFID technology affords the most benefits for the facilitated movement 
of travelers. Facilitation requires the ability to read a travel 
document in advance, verify identity, pre-position information, and, 
most importantly, perform automated watch list queries without impeding 
the flow of traffic. Our research and testing indicates that RFID 
technology is able to accomplish each of these requirements.
    DHS and CBP have instituted best practices for the collection, 
protection, and use of personal information for WHTI. No personal 
identifying information is stored on the RFID tag and all data is 
stored at remote locations on secure storage devices that can only be 
accessed via DHS's secure, encrypted networks. Issuance of an 
attenuating sleeve by DOS for the passport card and the states for the 
EDL will protect the tags from unauthorized reads when not in use at 
the border. Implementation of a card specific tag identifier number 
will ensure that a card cannot be cloned or duplicated.
    On average, the use of RFID technology saves six to eight seconds 
of processing time per passenger. Although we expect to quickly process 
the documents of most travelers, we will not focus on speed as the 
singular measure of success. Speeding up the document querying and 
authentication process gives more time for our CBP officers to ask 
questions and conduct inspections of those who require additional 
scrutiny. Time now spent examining a document will instead be used to 
probe those seeking to enter the United States who may present a higher 
risk.
    While the new document requirements and the implementation of WHTI 
are anticipated to have minimal negative impact on current wait times, 
other factors such as port design, infrastructure, traffic volume, and 
vehicle mix greatly affect border wait times. DHS and CBP are taking 
advantage of WHTI implementation to improve port infrastructure, but 
some challenges such as physical limitations will not be resolved in 
advance of WHTI implementation. Wait times are monitored on an hourly 
basis and proactive measures are taken to reduce wait times to the 
greatest extent possible using a variety of mitigation strategies and 
staff and lane utilization.
    Both DHS and DOS have worked closely with the Canadian and Mexican 
governments on numerous fronts, including the Smart Border Declaration 
and the Shared Border Accord. The objectives of these initiatives are 
to establish a common security approach to protecting North America 
from external threats, and to streamline the secure and efficient 
movement of travel and trade. We remain committed to such consultations 
that have fostered WHTI accomplishments. In particular, DHS has been 
involved in clear, action-driven plans with our Canadian counterparts 
regarding secure alternative documents that are available to Canadian 
citizens for WHTI purposes, including the issuance and production of 
EDLs for Canadian citizens as an alternative to the Canadian passport.
    We recognize that concerns remain about the impact of WHTI on 
border communities. We acknowledge that WHTI represents a social and 
cultural change, but assure the American people and Congress that WHTI 
will provide substantive enhancements to border security. The 
investments made at the ports of entry and to CBP systems are providing 
significant benefits to communities on both sides of the border and 
facilitate the legitimate flow of people and trade. WHTI is a key step 
in creating an effective and more efficient twenty-first century 
border. Our experience, to date, with both WHTI air implementation and 
the January 31, 2008, transition has been positive with no discernable 
negative impacts to the borders. We are confident that the deliberate, 
practical approach we have taken for the next phase of WHTI 
implementation will afford us the same results. WHTI conforms to our 
future vision of the land border in a way that meets our national 
security needs, our economic imperatives, and the public's trust.

Conclusion
    Chairwoman Sanchez, Ranking Member Souder and Members of the 
Committee, WHTI is on time, on budget, and on track to complete 
implementation at the land and sea ports of entry on June 1, 2009. We 
continue to move in the right direction of increasing identity document 
security, increasing information sharing among partners, and deploying 
the necessary resources to protect the border. Strong borders are a 
pillar of national security and WHTI is a key cornerstone supporting 
that pillar.
    Thank you again for this opportunity to testify, we will be happy 
to answer any of your questions.

    Ms. Sanchez. Thank you, Doctor.
    And will now recognize Mr. Winkowski to summarize a 
statement for 5 minutes or less. Welcome.

 STATEMENT OF THOMAS WINKOWSKI, ASSISTANT COMMISSIONER, OFFICE 
       OF FIELD OPERATIONS, CUSTOMS AND BORDER PROTECTION

    Mr. Winkowski. Chairwoman Sanchez, Ranking Member Souder 
and other distinguished members of the subcommittee, good 
morning and thank you for this opportunity to discuss how U.S. 
Customs and Border Protection will implement the second phase 
of the Western Hemisphere Travel Initiative at our land and sea 
ports of entry.
    CBP is fully prepared to implement WHTI on June 1st, 2009. 
We have made alternative secure documents available to 
travelers. Radio frequency identification readers and 
infrastructure will be operational at the top 39 and ports of 
entry, and we are in the midst of an aggressive communications 
campaign that will extend beyond June 1st to encourage 
travelers to obtain appropriate documents.
    Preliminary data indicate that the vast majority of 
travelers will be complying with WHTI document requirements and 
will be prepared for travelers, and we will be prepared for 
travelers who are noncompliant.
    CBP has broad discretion that it utilizes every day with 
travelers who lack of proper documentation. We plan to be 
flexible and pragmatic in our enforcement of WHTI and apply 
this flexibility on a case-by-case basis.
    In preparation for June 1st, CBP remains focused on the 
critical areas of communication, technology, deployment and 
field preparedness. CBP is executing the third phase of a 
comprehensive press, stakeholder and travel outreach effort, 
concentrating on the 12 major media markets along the northern 
and southern borders.
    We have implemented extensive communications to saturate 
these markets. To date, television and radio ads have aired 
more than 21,000 prints--excuse me--more than 21,000 times. 
Print advertisements have run more than 120 times. A Web site 
has been created as a primary source of information on WHTI 
documents, and over six million education tear sheets have been 
distributed to travelers.
    As part of our push prior to WHTI implementation, we are 
conducting press events at every land border port, reminding 
the traveling public to apply for the secure documentation now 
in order to have them for June 1st, 2009, and beyond.
    RFID technology is already operational at 34 of the 39 
high-volume manned ports and is on track to being installed and 
operational at the remaining five high-volume manned ports 
prior to June 1st.
    At all other land and sea ports of entry, lanes are 
equipped with optical character reader technology. This 
technology will read any travel document with a machine-
readable zone, including passports, border crossing cards, 
Trusted Traveler cards, enhanced driver's licenses, the 
passport card and lawful permanent residence cards.
    CBP will use the same approach of informed compliance 
instituted successfully during other major changes at the 
borders over the last 2 years, including the January 2007 
implementation of WHTI in the air environment and the January 
2008 end of the acceptance of oral declarations of citizenship 
at all land and sea ports.
    We anticipate that some travelers will not have appropriate 
documents, and we will use our full range of authorities to be 
flexible in accommodating the United States and Canadian 
citizens without WHTI-compliant documents in the initial phase 
of the implementation.
    CBP has also taken steps to ensure that our personnel are 
fully prepared for WHTI implementation. Just last week we 
brought together trainers, operations specialists and public 
affairs officers from around the country for a WHTI 
implementation conference.
    Our field personnel were thoroughly updated on policies and 
procedures and had the opportunity to discuss mitigation 
strategies for real-world situations that they are likely to 
encounter. In turn, these trainers will ensure that all land of 
border officers received comprehensive training and are 
prepared for implementation.
    On May 29th, 2009, we will establish the WHTI operations 
center at CBP headquarters, which will be staffed 24/7 to 
continuously monitor port operations before, during and after 
the June 1st, 2009, implementation.
    The center will conduct daily teleconferences with the 
field and will provide immediate responses to questions and 
concerns. On June 1st senior managers will be working at the 
ports. Primary lanes will be fully staffed, and our uniformed 
public affairs officers will be on-site to provide accurate 
public affairs guidance.
    WHTI is on time, on budget and on track to complete 
implementation at all manned and sea ports of entry on June 
1st, 2009. We continue to move in the right direction of 
enhancing identity document security, increasing information 
sharing among partners, and deploying the necessary resources 
and technology to protect the borders.
    Thank you again for the opportunity to testify, and I look 
forward to answering any of your questions.
    Ms. Sanchez. Thank you.
    And now we will hear from Mr. Brennan for 5 minutes or 
less.

  STATEMENT OF JOHN BRENNAN, SENIOR POLICY ADVISOR, BUREAU OF 
             CONSULAR AFFAIRS, DEPARTMENT OF STATE

    Mr. Brennan. Chairwoman Sanchez, Ranking Member Souder, 
distinguished members of the committee, thank you for this 
chance to discuss the role of the Department of State and 
providing American citizens with passports and passport cards 
to prepare them for the June 1st final implementation of WHTI.
    The economic well-being and general welfare of border 
communities and of our neighbors to the north and south depend 
on the free flow of people and goods. We are committed to 
implementing WHTI in a thoughtful manner that facilitates 
trade, travel and tourism while enhancing our national 
security.
    To this end, we have worked closely with the Department of 
Homeland Security and in particular the U.S. Customs and Border 
Protection to inform the American public of the upcoming WHTI 
deadline and to give U.S. citizens the documents they will need 
to comply with WHTI.
    Since the program was announced in 2005, we have issued 
passports in record numbers. In July 2008 we began issuing 
passport cards designed to work with the new systems CBP has 
installed at the land borders. We issued the millions card in 
April, and demand is rising.
    Since the beginning of April, there have been more than 
40,000 passport card applications each week, more than double 
the number we saw in October. We believe this and other trends 
show the American public is aware of the new documentary 
requirements under WHTI and are coming into compliance with 
them.
    In 2007 to department issued 18.4 million passports, and 
historic high. In 2008 we issued 16.2 million. Current year 
demand is below last year's level. Nevertheless, the percentage 
of Americans holding passports continues to rise.
    More than 92 million Americans have passports today, and we 
estimate that about 33 percent of the U.S. citizen population 
now holds a passport or passport card. We are on track to issue 
more passports this decade than in the two previous decades 
combined.
    In response to the unprecedented demand we saw in 2007, we 
have increased our passport issuing capacity by 95 percent. 
With our increased resources, we are capable of issuing 26 
million passports a year.
    Citizens can apply for passports and more than 9,400 
acceptance facilities, post offices, courts of clerk and other 
government offices nationwide. To meet the needs of border 
residents, we have 301 acceptance facilities located within 25 
miles of the U.S.-Canada border and 128 within 25 miles of the 
U.S.-Mexico border.
    This year the department will open three new passport 
agencies in Detroit, Dallas and Minneapolis. We will hold an 
official ribbon cutting ceremony for the Detroit office on May 
11th. The office is already open for service to the public.
    We are doubling the size of adjudicating capacity of the 
national passport Center in Portsmouth, New Hampshire, and we 
have expanded existing agencies in Seattle, Chicago, Houston, 
Miami and New Orleans.
    We have established two new large-scale production and 
personalization facilities, one in Hot Springs, Arkansas, and 
one in Tucson, Arizona. Each is operational, and each has the 
capacity to produce 10 million travel documents a year.
    We began production of a wallet size passport card in July 
of 2008 and have issued over 1.1 million as of today. The card 
is made to fit the specific needs of border communities for a 
less expensive and more convenient alternative to the passport 
book.
    The card was designed and priced specifically as a limited 
user passport that works with the RFID architecture found only 
at the land borders of the United States. It is not an 
international globally interoperable travel document and cannot 
be used for international air travel.
    Passport cards have the same validity as passport books--10 
years for an adult, 5 years for a child under 16--but the card 
is considerably lower in price. First time adult applicants pay 
$45. Children's applications cost $35. And adults who already 
have a passport book pay only $20.
    We continue a vigorous public outreach campaign as the WHTI 
deadline approaches. Our passport agencies have held over 90-
odd week events since February, ranging from travel shows to 
naturalization ceremonies.
    Passport Day in the U.S.A. was held on Saturday, March 
23rd, as a national campaign and provided thousands of citizens 
with a convenient opportunity to apply for a passport. We will 
continue to use radio, newspapers and magazines, especially in 
border areas, to which the travelers who would be most affected 
by the June 1st implementation.
    Thank you. And I look forward to your questions.
    [The statement of Mr. Brennan follows:]

                   Prepared Statement of John Brennan

    Chairwoman Sanchez, Ranking Member Souder, Distinguished Members of 
the Committee,
    Thank you for this opportunity to discuss the Western Hemisphere 
Travel Initiative (WHTI) and the role of the State Department in 
providing American citizens with reliable, secure passports and 
passport cards to prepare them for the final phase of WHTI 
implementation at land and sea ports on June 1.
    The goals of WHTI are to strengthen border security and facilitate 
entry into the United States for U.S. citizens and legitimate foreign 
travelers. We have worked closely with the Department of Homeland 
Security, especially U.S. Customs and Border Protection, to ensure that 
we meet both these goals. On June 1, we will complete a four-year 
effort set in motion by the passage of the Intelligence Reform and 
Terrorism Prevention Act of 2004. Under that legislation, the 
Departments of Homeland Security and State were charged with developing 
and implementing a plan to require travelers, U.S. citizens and foreign 
nationals alike, to present a passport or other secure document 
denoting identity and citizenship when entering the United States.
    Since the WHTI program was announced in 2005, eligible U.S. 
citizens have been issued passports in record numbers. In July 2008, we 
began issuing passport cards, which are specifically designed to work 
with the new systems U.S. Customs and Border Protection has installed 
at the land borders to facilitate identification and inspection of 
travelers. We issued the millionth card in April and demand for the 
passport card is rising. In April, we received more than 40,000 
applications each week, more than double the numbers seen in October. 
Our workload indicates that Americans are aware of the new document 
requirements under WHTI and are coming into compliance with them. In FY 
2007, the Department issued 18.4 million passports--a 50 percent 
increase over FY 2006 and an 80 percent increase over FY 2005. In FY 
2008, we issued 16.2 million passports, slightly down from the 2007 
high. In FY 2009, we believe we are on track to issue slightly fewer 
than in the previous year.
    Despite a drop in demand in the current fiscal year, the percentage 
of Americans holding passports continues to rise. New passports are 
being issued in greater numbers than old passports are expiring. More 
than 92 million Americans, 30 percent of the total U.S. population, now 
hold a passport or passport card. When this figure is adjusted to 
reflect an estimate of the U.S. citizen population as opposed to 
general population, we believe the figure would be closer to 33 
percent. WHTI has stimulated a fundamental shift in the number of 
Americans who are documented with passports. We are firmly on track to 
issue more passports this decade than in the two previous decades 
combined.

Increasing Passport Production Capacity
    In response to the unprecedented demand seen in FY 2007 and the 
elevated baseline for demand established in the past few years, the 
Department has increased its passport issuing capacity by 95 percent 
since FY 2007. As a result of this substantial increase in processing 
and production capacity, we are maintaining the service levels listed 
on our website; we are currently processing routine passport 
applications within four-to-six weeks and expedited applications within 
two weeks. We are prepared to meet demand greater than the 18.4 million 
passports issued in FY 2007. Despite the recent economic downturn, 
which we believe has been a significant factor in lowering current year 
demand, we remain prepared to handle an increase if circumstances 
change.
    The Department has implemented a long-term strategy to increase 
staffing levels and infrastructure necessary to meet the higher demand 
for passports stimulated by WHTI. We hired hundreds of additional 
passport adjudicators and support staff. The Department maintains a 
reserve corps of passport adjudicators to supplement our full-time 
Passport Services staff. This gives us the ability to react quickly to 
demand surges. We have systems in place to quickly augment the 
adjudication workforce and to distribute passport processing workload 
among our facilities.
    The Arkansas Passport Center (APC) opened in Hot Springs in 2007 
and was a key addition to our passport facilities. APC is a departure 
from our other passport centers, which have production and adjudication 
resources, in that it focuses solely on printing and mailing passports. 
It has the capacity to print 10 million travel documents per year. The 
centralization of passport printing and mailing frees up space and 
personnel at our existing passport agencies, allowing them to focus on 
the critical areas of customer service and adjudication. Using the 
Arkansas Passport Center as a model, we opened a second printing and 
mailing facility in Tucson in May of 2008. This facility, like the one 
in Arkansas, will have the capacity to print more than 10 million 
travel documents per year. The Tucson center gives us redundant 
capabilities that substantially improve our passport production 
systems.

Expanding Passport Acceptance Facilities
    One of the Department's key objectives is to ensure that passport 
services are provided in a secure, efficient, and courteous manner. Our 
services need to be easily accessible in order to make our application 
process as convenient as possible for citizens. Currently, citizens can 
apply for a passport at more than 9,400 passport acceptance facilities 
at post offices, clerks of court, and other government offices 
nationwide. The vast majority of passport applications are submitted 
via a designated acceptance facility or mailed directly to us.
    We have heard the concerns of border residents, and maintain an 
extensive network of acceptance facilities along the northern and 
southern border regions. There are currently 301 acceptance facilities 
located within 25 miles of the U.S.-Canada border and 128 acceptance 
facilities located within 25 miles of the U.S.-Mexico border. Since the 
end of calendar year 2006, we increased the total number of facilities 
within 25 miles of the Northern border by five percent and the total 
number of facilities within 25 miles of the Southern border by 15 
percent.
    Our largest acceptance agent partner, the United States Postal 
Service (USPS), has held several successful passport acceptance events 
in border regions around the country. These ``Passport Fairs'' help 
meet high customer demand for passports in underserved areas. The USPS 
plans more of these passport acceptance events leading up to the June 
1, 2009, implementation date.

Passport Agencies
    The Department plans to officially open three new Passport Agencies 
in Detroit, Dallas, Minneapolis, in 2009 to serve border communities 
readying themselves for WHTI land and sea rule requirements. I am 
pleased to inform the Committee that the Detroit ribbon cutting is to 
be held next week, on May 11th, and the others will follow shortly. 
These new agencies will provide expedited service to citizens with 
imminent travel plans, and will have the capability to issue passport 
books and cards on-site to qualifying applicants. The American Recovery 
and Reinvestment Act of 2009 provided the Department with funding to 
construct additional passport facilities, which will enable us to 
expand our operations further over the next two years to provide 
services in more locations.
    The Department evaluates several criteria to determine the location 
of new passport agencies, including accessibility, distance from an 
existing passport agency/center, volume of current passport applicants, 
service and volume of international and domestic departures, and 
population trends.
    We took action to expand our existing agencies along the northern 
border in Seattle and Chicago, and are doubling the size and 
adjudication capacity of the National Passport Center in Portsmouth, 
New Hampshire. Along the southern border, we are expanding our 
facilities in Houston, Miami, and New Orleans.

Passport Card
    We began full production of a wallet-sized passport card in July 
2008, in response to the desire expressed by American citizens who live 
near the land borders for a more portable and less expensive document 
than the traditional passport book. The passport card is designed for 
the specific needs of border resident communities and is not a globally 
interoperable travel document like a traditional passport book.
    The passport card will facilitate entry and expedite document 
processing at U.S. land and sea ports-of-entry when arriving from 
Canada, Mexico, the Caribbean region, and Bermuda. The card was 
designed and priced specifically as a limited-use passport that works 
with the radio frequency ID architecture for WHTI documents found only 
at the land borders of the United States. By regulation, it may not be 
used for international air travel. It does constitute primary proof of 
U.S. citizenship and is adjudicated to the same exacting standards as 
passport books.
    The card has the same validity period as a passport book: 10 years 
for an adult, and five years for children 15 and younger. First-time 
adult applicants pay $45 for their cards, and cards for children cost 
$35. Adults who already have a passport book may apply for the card as 
a passport renewal and pay only $20 (no execution fee required). 
(Children 15 and younger are required to appear before an acceptance 
agent and therefore must always pay the execution fee.)
    To meet the operational needs of the Department of Homeland 
Security's Customs and Border Protection (CBP) and to facilitate 
document processing at U.S. ports-of-entry, the passport card uses 
vicinity-read radio frequency identification technology (RFID). The 
vicinity-read RFID chip in the passport card contains no personal 
information; it has only a reference number that points to a stored 
record in a secure DHS database. This reference number does not appear 
on the face of the card and is not used for any official record keeping 
purpose. RFID readers mounted at the side of the traffic lane at ports 
of entry allow Customs and Border Protection officers to pull up the 
database records of card holders as they roll up to the inspection 
booth, facilitating inspection and entry of legitimate travelers. The 
cards are issued with a protective ``attenuation'' sleeve for storage 
which prevents reading of the card when not in use; the signal from any 
RFID reader is blocked while the card is kept in its sleeve.
    This card is the result of an inter-agency effort to produce a 
durable, secure, and tamper-resistant card for the American public, 
using state of the art laser engraving and security features. To ensure 
durability for the ten-year validity period, we chose to make the card 
of a sturdy polycarbonate composite material rather than the standard 
plastic used for ID and credit cards. The Department has benefited from 
the collaborative efforts of the National Institute of Standards and 
Technology (NIST), Sandia National Labs, the DHS Forensics Document Lab 
(FDL), and, of course, colleagues at CBP. To ensure the durability and 
integrity of the card, the Department subjected the test cards to a 
full battery of durability and chemical testing at Sandia National Labs 
in accordance with guidance from NIST. In consultation with the DHS/
FDL, the card is designed with multiple layers of overt, covert and 
forensic security features to guard against tampering and 
counterfeiting and to provide easy visual verification to CBP officers.

Public Outreach
    Public outreach is the key to successful implementation of WHTI. To 
better prepare American travelers for the June 1, 2009, implementation 
date, the Department has contracted with a marketing firm and launched 
an outreach campaign providing information to Americans about WHTI 
requirements, the new passport card, the differences between the card 
and the traditional book, and encouraging them to apply for their 
documents early.
    We are in the final stages of full WHTI implementation. Working 
together, the Department of State and DHS are in the final phase of our 
concentrated public education efforts utilizing targeted advertising 
with local media in areas with high populations of persons who use the 
land borders. Over the past year there has been significant media 
coverage of WHTI across the country, at the national level and in the 
critical border states. The Department of State has reached out across 
the country at events ranging from travel shows to naturalization 
ceremonies. We have joined with CBP at events on the border as the new 
WHTI infrastructure has been rolled out. Our own paid advertizing has 
complemented the DHS media campaign with billboards, radio spots, e-
mail blasts and web banners aimed specifically at border communities. 
Our passport agencies, along with the numerous passport acceptance 
facilities in every corner of the United States, have made a tremendous 
effort to be out in their regions, especially along our border. We will 
continue to reach out to our customers and neighbors with passport 
fairs, press releases, and visits to their post offices, town halls, 
and libraries.

Reaching Target Demographics
    We have seen several trends that indicate our combined efforts in 
increasing production capacity, adding acceptance facilities and 
agencies, and outreach are reaching many of our key target 
demographics. Passport card applications are increasing. Passport and 
passport card applications tend to be higher in border states than in 
non-border states. This is true for both the northern and southern 
borders.

Conclusion
    We understand that security and efficiency at our borders are 
essential to the national security and economic well being of the 
United States, and of our neighbors to the north and south. The 
economic well being and general welfare of border communities depend on 
the free flow of people and goods.  As we have stated since announcing 
WHTI four years ago, we are committed to implementing WHTI in a 
thoughtful manner that facilitates trade, travel, and tourism while 
enhancing our national security. We believe we are well positioned to 
meet current passport demand, and we have substantially augmented our 
capacity in order to meet future growth. We have worked closely with 
the Department of Homeland Security and U.S. Customs and Border 
Protection to inform the American public of the upcoming WHTI deadline 
and to give traveling U.S. citizens the documents they will need to 
comply with the new WHTI requirements.
    Thank you and I look forward to your questions.

    Ms. Sanchez. I thank all the witnesses.
    And as customary, it is now time to question. I will remind 
all members that we will have the lights on, and members will 
get 5 minutes. And I will begin the questioning of our 
witnesses.
    Mr. Winkowski, welcome. This stimulus package that we 
passed earlier this year provided $700 million for port of 
entry infrastructure improvement. While the increasing size of 
cross border commuters and there is an aging port 
infrastructure, I believe that WHTI is going to put even 
additional stress on these ports of entry.
    So my question to you is can you give this subcommittee an 
update where CBP is in improving some of the major land ports 
on our northern and southern borders? Is there a priority list 
for ports of entry that need the most infrastructure 
improvement? Maybe he can start with those two questions.
    Mr. Winkowski. Yes, thank you very much for that question. 
As you stated, we received $720 million in the stimulus package 
and truly appreciate the support for that funding.
    Actually, CBP received $420 million for the CBP-owned 
facility, most of which are up on the northern border. And the 
GSA received $300 million to refurbish several ports of entry, 
primarily on the southwest border.
    So we have a plan. We have a joint program management 
office with the GSA. We have a number of facilities that are in 
the process of going through environmental studies and things 
of that nature. This is absolutely critical for us because of 
the aging infrastructure. Many of our buildings are more than 
40 years old. That money has been earmarked for certain 
locations in priority order that we have worked up along with 
the GSA.
    Ms. Sanchez. And what types of improvements are we talking 
about? And why is the GSA involved? I mean, I know, but maybe 
some of the other committee----
    Mr. Winkowski. Yes, well, in CBP we own some of the 
facilities, so that is that $420 million that we got from the 
stimulus package and other locations permanent on the southwest 
border. GSA owns those facilities, and we lease from them.
    The enhancements go from major renovations, adding 
additional lanes, additional facility space, additional cargo 
locations to much-needed repairs and alterations. It is on a 
site-by-site location.
    Ms. Sanchez. Mr. Barth, do you have anything to add to 
that, or----?
    Mr. Barth. No, I think that as Mr. Winkowski said, this is 
long overdue, and we appreciate the funding by the Congress. 
The relationship of GSA is very strong, and we expect to spend 
the money to good effect in the very near future.
    Ms. Sanchez. Thank you.
    Mr. Barth. Thank you.
    Ms. Sanchez. Mr. Winkowski, we have put a lot of money into 
the budget in the last 3 or 4 years, in particular with respect 
to staffing.
    And I think, for example, I was talking to Chief Aguilar, 
we have gone in the last 4 years or so, actually about 3 years, 
from about 8,000 to almost 20,000 or so, from a staffing slot 
perspective. And, of course, he has been talking about how 
difficult it has been to recruit and the training that goes 
behind this.
    Do you think that the implementation of WHTI is going to 
exacerbate any of the staffing shortages that we have seen? And 
the second question would be about the training of the officers 
with respect to the new requirements and procedures.
    Mr. Winkowski. First of all, the Congress has been very, 
very generous to us in field operations when you look at the 
increase that we received, particularly in the area of our CBP 
officers and also in the agricultural specialist side.
    As you know, WHTI, the WHTI budget gave us nearly 300 
additional CBPO positions, and we very much appreciate that and 
have the majority of those officers on board.
    My view of this is that WHTI is going to make their job 
much more efficient and effective. We need to keep in mind, and 
we could take a kind of walk down memory road, that prior to 
January of 2008 when we eliminate the oral declarations, that 
are officers had over about 8,000 different documents that 
individuals could present to us on the border to prove their 
identity and their citizenship.
    That is no longer the case, and certainly when WHTI comes 
in, that will eliminate that process totally. So I believe 
WHTI, with the RFID technology, the new license plate readers, 
the whole WHTI package, the WHTI solution, and our new vehicle 
primary client, it will make our officers much more efficient 
and effective.
    Ms. Sanchez. Thank you.
    I am going to try to make another set of questions, but I 
would like to give some to the other members here. I think we 
all have so many questions.
    At this particular time, I would like to recognize the 
ranking member of the subcommittee, the gentleman from Indiana, 
for his questions.
    Mr. Souder. Let me first follow up, Mr. Winkowski, with 
the--you said 8,000 documents, an historic--when you get all 
the enhanced driver's licenses and everything together, how 
many do you think?
    Mr. Winkowski. We are going to come down to a handful. When 
you count, you know, the passport, the passport card, the 
NEXUS, the FAST, the SENTRI, the enhanced driver's license, and 
also in some limited cases we have--and Dr. Barth referred to 
this in his testimony--you know, the military IDs and the 
merchant marine. In fact, we are down to less than about 10.
    Mr. Souder. And since these are--well, will the states 
vary? In other words, one of the questions here is they are 
more technical documents now with more sophistication in them.
    Mr. Winkowski. Yes.
    Mr. Souder. Will you have the ability to read all the 
variables fast? in other words, the different state cards, the 
military cards, because the sophistication is greater?
    Mr. Winkowski. That is correct. Particularly when you are 
looking at the passport card, our Trusted Traveler program and 
our EDLs, which all those documents are vicinity RFID readable.
    So the idea here is when a car comes up, they show their 
card to the tech--the pad on the lane, and by the time that 
automobile enters up to the booth where the officer is, we have 
already done all of our checks.
    We are estimating, Congressman, that we can save between 6 
and 8 seconds per passenger. And that is real-time.
    Mr. Souder. And are the state driver's licenses included in 
that?
    Mr. Winkowski. Yes, they are. They are----
    Mr. Souder. Because they all have to be machine readable on 
the machine that you have.
    Mr. Winkowski. You can read them with the technology, the 
vicinity technology, where you hold it up to the pad and it 
reads it. And it also can be read by a machine.
    Mr. Souder. And are the Canadians doing a similar thing on 
their side? I know British Columbia--will their provincial 
licenses be able to be read?
    Mr. Winkowski. Right. Yes, in the same manner, yes.
    Mr. Souder. And do you expect this to be your fastest 
growth category in state driver's licenses? What kind of mix 
are you looking at here in the----?
    Mr. Winkowski. I think our fastest growth, as Mr. Brennan 
mentioned, is the passport card for the U.S. citizens with--the 
Canadians are highly compliant with their passports, so we are 
hoping that as the province is open up and more EDLs are 
issued, that Canadians will get the EDLs.
    Mr. Souder. And, Mr. Brennan, you gave some numbers on you 
know the 40,000 a week million. What percentage of the number 
of people who cross currently--this is difficult, because there 
are more of a crossing--what percentage are you estimating of 
what you have out right now versus historic usage is the gap?
    Mr. Brennan. I am not sure I fully understand. In terms of 
what we have out now and----
    Mr. Souder. If 15 million people--you know, not number of 
crossings, but number of people--if there are 15 million people 
who in the course of the year cross the border north and south, 
what percentage are covered with eligible? And that is a pretty 
basic question.
    Mr. Brennan. Oh, with the RFID documents?
    Mr. Souder. Yes.
    Mr. Brennan. Yes. I think it is a little bit too early to 
tell, because we will only know that when the cards are--when 
all the infrastructure is in and the cards are being read. 
There are only 1.1 million in circulation at present, so as a 
percentage of total travel, that is going to be low.
    Mr. Souder. No, this--I am sorry. I have a business 
degree--this is a kind of a pretty basic question. I realize 
the detailed accuracy with the card. But if you know how many 
states have a compliant driver's license, everybody in those 
states would be, you know, qualified.
    If you have the number of people in the military level 
qualified thing, that is another percent, and--but this is kind 
of pretty basic, because one of the major goals you should have 
is here is the number of people who cross, here is how many we 
have. That will vary by year. It is not a precise science, 
because you are doing estimating.
    But in estimating, I would think that would be one of the 
primary things that the department should be trying to 
estimate. It is what is the gap and are we closing it?
    Mr. Winkowski?
    Mr. Winkowski. If I could take a crack at that, we are 
estimating and really confident on this number, that 80 percent 
of the crossings today have WHTI compliant document, okay? Now, 
it is an assortment of documents, so we have the passport, the 
EDL, the passport card.
    We are estimating that by June 1st that number is going to 
increase. So we have about 271 million crossers on the northern 
border and southern border. Our numbers show that 80 percent 
right now are compliant, and that number will grow.
    Mr. Souder. And 80 percent of the numbers of people, or 80 
percent of the numbers of crossings, because people who cross a 
lot----
    Mr. Winkowski. Crossers. Crossers could be multiple times.
    Mr. Souder. Okay.
    Mr. Winkowski. Right.
    Mr. Souder. Thank you.
    Ms. Sanchez. The chair now recognized Mr. Green of Texas 
for 5 minutes.
    Mr. Green. Thank you, Madam Chair.
    And I greatly appreciate the opportunity to visit with the 
witnesses. I have listened to the testimony, and I am impressed 
with what I have heard.
    I would like to ask a couple of questions concerning a 
circumstance that might arise that were not anticipating. Let 
us assume that things don't quite as well as we would like them 
to. Is there a plan B in place? Example: card reader fails, and 
we now have some backup for that reader. Is there something in 
place to help us in the event we have systems failure that does 
not anticipate it?
    Mr. Winkowski. Yes, and we have mitigation procedures in 
place. That actually happens today. It is few and far between 
when it does happen, Congressman, but we do have it at times 
when our system goes down, and we have mitigation procedures in 
place.
    Or in a case where there is slow response time, we have 
mitigation procedures in place that enables us to continue to 
protect the homeland while at the same time being cognizant of 
backups and traffic delays.
    Mr. Green. Do these mitigation procedures involve rerouting 
traffic, or--I don't want you to give me anything that would 
compromise security, but I am curious as to how you can 
accomplish this, given that plan A is designed to move people 
as quickly as possible.
    Mr. Winkowski. In some locations the bridge authorities 
have electronic networks that they can show to drivers as they 
are on the highways to go use different bridges.
    I think that is one thing that we need to get much better 
at from the standpoint of being able to direct traffic from one 
location that is backed up to two miles down the road that is 
not as busy.
    I think the stimulus package money will enable us to do 
some of that in partnering up with our partners in the bridge 
authorities.
    Mr. Green. Now, let us talk about exceptions. I know that 
we always have some exceptions, and I am respectful of 
exceptions. The question is how many have we made in terms of 
documentation? If I need to be more explicit, I can, but if you 
understand, then you can respond to what I said. I would 
appreciate it.
    Mr. Winkowski. If you could give me a little more----
    Mr. Green. We have an exception for the Amish, and I think 
that is a good thing. I respect religion. Are the other 
exceptions?
    Mr. Winkowski. Well, we have the Amish, as you mentioned. 
We also have our tribal nations.
    Mr. Green. Tribal?
    Mr. Winkowski. Tribal nations.
    Mr. Green. Tribal nations.
    Mr. Winkowski. Our Native Americans. We are working. Come 
June 1st, the Native Americans will be able to continue to 
present their picture tribal card. We are working very 
diligently with them in developing an enhanced tribal card.
    We have one tribe in Idaho that has already agreed to and 
signed the necessary documents to develop the enhanced tribal 
card. We have several more to go. And we have been working with 
tribes very, very closely. We have about 40 tribes, as I 
recall, that leave near the border, the northern, southern 
border.
    Ten have acknowledged the memorandum of agreement, and we 
are working out the details. It is complicated. There is costs 
associated with the tribes developing the enhanced tribal card. 
There is an issue with vendors.
    For example, in Idaho the one tribe that is flooding on to 
produce the ETC, they are very smart. I believe their tribe has 
about 140 members, and it is hard to find a vendor that is 
willing to put the infrastructure in place and the costs 
associated with that for 140 cards.
    Mr. Green. With about 50 seconds, let me ask this. Commerce 
lanes. I assume that you have specific lanes for commerce. Is 
this correct?
    Mr. Winkowski. Yes, we have the commercial cargo lanes, 
yes.
    Mr. Green. And are you comfortable with the number of cargo 
lanes, such that we will get the traffic, the commercial 
traffic, through?
    Mr. Winkowski. No. In some areas we are woefully--the 
infrastructure is not acceptable. Thhe $720 million from the 
stimulus package will help us rectify that in a number of 
locations.
    And you need to keep in mind that we are estimating that it 
is about $6 billion to fix the infrastructure at our land 
borders. And I think we are off to a good start. We very much 
appreciate the $720 million that we received.
    But there are areas around the country that we don't have 
enough infrastructure in place, whether it is the cargo side or 
the pedestrian side of the vehicle side.
    Mr. Green. My time has expired. Thank you very much.
    Thank you, Madam Chair.
    Ms. Sanchez. I thank the gentleman from Texas.
    And now we have Ms. Lofgren, a colleague from California 
for 5 minutes.
    Ms. Lofgren. Thank you, Madam Chairwoman.
    Several of us have expressed concern about the reliability, 
physical security and counterfeit resistance of two of the WHTI 
cards issued by the State Department, the passport card and the 
Mexican border crossing card.
    And Howard Berman, the chairman of the Foreign Affairs 
Committee, myself and a number of other members have asked GAO 
to take a look at the security features of these cards. And I 
am confident that GAO will do a thorough job and report back.
    But I am wondering if we have thought through. We have 
issued now a million of cards, if I heard you correctly. What 
are we going to do if GAO comes back and says, ``Here are the 
deficiencies, and it is vulnerable?''
    Mr. Brennan. We are, of course, working very closely with 
the GAO. You know that we believe that the card is a good 
product, that it is durable, that it is secure. And we--and 
GAO--we know that there are differing views. And GAO is 
undertaking their investigation now.
    When they come back and recommendations, we will of course 
take them on board, and we will attempt to incorporate them. 
But we don't know what their findings will be.
    We have attempted to be as cooperative and forthcoming with 
them in their investigations to date. And we have in fact 
encouraged them to move forward as quickly as they can, because 
they do have recommendations that would affect changing the 
cards so that we could determine how to implement.
    Ms. Lofgren. Do we know when the report will be done?
    Mr. Brennan. We don't really. I don't really want to speak 
for GAO, but I have consulted with them. They are aware of what 
we are doing now. They are aware of what plans we might have 
for the future.
    Ms. Lofgren. Madam Chairman? Madam Chair? Madam Chair? I 
wonder if we could ask GAO for a status report on the report 
they are doing and at least an estimate of when they expect the 
report to be concluded, because one of the things I wondered is 
if it is a near-term saying, whether it might make sense to 
hold off. If it is going to be a year, obviously that would be 
a different outcome.
    Mr. Brennan. Well, we agree completely. And I will be frank 
and perhaps step over the line a little bit. We have asked GAO 
to complete that. Their study, of course, includes the card, 
the card's use, you know, it is reading and data transfer, a 
variety of things.
    And we have asked them to complete the section that deals 
with the card as quickly as possible. And if that is acceptable 
to the members who have requested it, then we will, of course, 
appreciate that.
    Ms. Lofgren. Well, I will move on to my next question, 
because I think we really need to ask GAO, and it is not fair 
to ask you----
    Ms. Sanchez. The chair will take it under consideration and 
talk to GAO.
    Ms. Lofgren. I appreciate that.
    I want to talk about the readers. Now, my understanding is 
that we are only going to install the RFID readers and flash 
card--the RFID readers at--is it 34 or 39 of the 150 land?
    Mr. Winkowski. Thirty-nine.
    Ms. Lofgren. Thirty-nine.
    Mr. Winkowski. Thirty-nine locate ports.
    Ms. Lofgren. So I guess the question I have is that since 
everyone will know where the readers are, what level of 
security are we going to have? You know, if I want to have a 
counterfeit card, then I go to the area where there is no 
reader, right?
    Mr. Winkowski. Well, no, not actually. There is a couple of 
things. The 39 locations have multiple crossings, which account 
for 95 percent of the crossings.
    Ms. Lofgren. I thought it was 96 percent, but still--
    Mr. Winkowski. Right. But the locations that do not have 
the RFID will still have the machine-readable technology, so 
they will still be read and go through this different--it is 
the same system. It is just how it is read.
    With the RFID vicinity, you sit in your car, and you flash 
your----
    Ms. Lofgren. So you will have machine readers that every 
single land port.
    Mr. Winkowski. They have been there for years, yes.
    Ms. Lofgren. Okay. Well, that is good news.
    I am wondering in terms of the--and maybe it doesn't make a 
difference, if it is only 4 percent, but whether the movement 
of individuals and goods across the 4 percent were we won't 
have the RFID readers is going to be smooth, and whether we 
should anticipate jam ups and interference with commerce at 
those sites.
    Mr. Winkowski. No, we don't anticipate that. The locations 
that don't have the WHTI solution are very small. We do have a 
plan, and Congress has been very generous with this program, 
where we can go out and begin expanding to all 100 locations on 
the northern and southern border, okay?
    Our focus was on the big ones, the 39 ports of entry that 
captured 95 percent of the crossing activity. Our plan here is 
to go out and put the WHTI solution in all the locations.
    Ms. Lofgren. Okay. Thank you very much.
    I yield back, Madam Chair.
    Ms. Sanchez. Thank you to my colleague from California.
    Just to elaborate, what you are saying is that the WHTI 
card, or these readers, would be at these 39 places, but that 
is just to get the information ahead of time before the car or 
the person crosses. But that same card will be read by machines 
that all of the crossings that we have.
    Mr. Winkowski. That is correct.
    Ms. Sanchez. It is just a way of sending information two or 
three cars ahead of time.
    Mr. Winkowski. That is correct.
    Ms. Sanchez. Okay.
    I now recognize my colleague from Texas, from a big border 
state. I think you have several crossings yourself in your 
district. Mr. Cuellar, for 5 minutes?
    Mr. Cuellar. Thank you very much.
    And I think out of all the members of Congress, I think I 
have more border crossings than anybody else, so border 
crossings are very important to me.
    Madam Chair, thank you very much for having this particular 
meeting.
    And to the three witnesses, thank you for the service that 
you all provide.
    One quick question. First of all, Mr. Winkowski, I 
appreciate the work. I think you have done an excellent job in 
improving at improving the operations and make him sure. I 
know, for example, at Laredo we have become, I guess, the first 
port in the country that is 24 hours a day. And I appreciate, 
you know, exactly. And we appreciate that and having the proper 
staffing.
    But I would ask you just one quick thing. We--Chairman 
Thompson, myself--and I think I first asked you this question 
back when we were in the bathroom. Could you give us now under 
this new administration what will be the staffing that you 
would need to properly staff the northern and the southern 
border?
    I think we have heard the 4,000 members, but if you can get 
that over to the committee, I know that both Chairman Thompson 
and myself had asked, and I had asked you when we were in El 
Paso. One, I would ask you to do that.
    And, of course, the other thing is what would it be to--
what do we need? And I have heard the numbers 4.9, but I would 
like to get it from you all as to the facility staffing. And 
again, I would ask you all to get that, because we want to work 
with you. We want to provide you the staffing.
    I know that under the president's proposal for the 
Southwest initiative, he talked about--I think he is talking 
about another 65 new customs agents. I think personally it 
should be a lot more than 65, because we have done a good job 
at men and women of men and women in green, which is Border 
Patrol, but it is the men and women in blue, which is Customs, 
to make sure our legitimate trade and movement of people and 
goods move, go on.
    So I would ask you to provide that to us. But I know last 
year I think we were on it for about 6 months, and quite 
honestly after both the chairman and myself asked for it, we 
thought were going to get it. We got a lot of off the record 
comments, but I would ask you to do that, because I think we 
want to help you.
    But again I want to thank you for the work that you all 
have been doing in this particular area.
    My second question goes then to Mr. Brennan. We met with 
Secretary Clinton before she took off to Mexico. And one of the 
issues that we talked to her about was on the passport that has 
to do with midwives. You are familiar with midwives, are you?
    Mr. Brennan. I understand that there is ongoing litigation 
on this, yes.
    Mr. Cuellar. Okay. And I am not talking about litigation. I 
am talking about just the issue itself. The issue that I have 
is in fact I think there were five members that were present, 
including myself, that said, ``Hey, we were delivered by 
midwives.''
    As you know, midwives are used in different parts of the 
country, but let me talk about in an area that has a lot of 
Hispanics in the border don't have the resources to go to a 
hospital, so therefore they are delivered by a midwife at home.
    And the reason I say that is because even though I have 
asked the department that said they are not red-flagging 
midwives, but it almost feels, at least talking to my 
constituent workers, people that do with those cases, that 
there is almost a red flag.
    I understand there has been some fraud with some midwives. 
I do understand all the history. I have worked on this 
legislation even at the state level. I do understand all the 
history.
    But I would ask you all to look at the midwives, because it 
is something that--or the issues of passports dealing with 
midwives, because I don't want you all to automatically target 
the people that were delivered by midwives--just say, you know, 
where there has been fraud, so therefore we are going to target 
you all.
    I would ask you to look at that and then let me sit down 
with you later on this particular issue. I am just saying it is 
an issue on the border. Secretary Clinton says she was going to 
assign somebody. And I am sure I don't know if it was you, 
whoever it was, but I would ask you to look at this particular 
should, because it is a big issue.
    Mr. Brennan. It is a big issue, and we have people working 
on it. And they are actually under the passport office, and I 
am not really engaged with them on a day-to-day basis.
    As I have mentioned, there is ongoing litigation that 
involves some aspects of this, and we are certainly more than 
willing to meet with you at your--to discuss the issue further. 
And I can get the people who have the best answers for you.
    Mr. Cuellar. Yes, and make sure they come up with another 
answer, because I met with them I guess almost a year ago, and 
they said they were going to change things, but I still get----
    Mr. Brennan. A lot has happened in the year, sir.
    Mr. Cuellar. And I was going to say there is a new change, 
and I appreciate it, and I would like to sit down with you, 
because it is an issue, and it is coming up pretty quickly. So 
as soon as you all can set up the meeting, I would appreciate 
it.
    But Mr. Brennan, I thank you and the other two witnesses. 
And I appreciate the service and job.
    Mr. Brennan. Thank you, sir.
    Mr. Cuellar. Thank you.
    Ms. Sanchez. Mr. Massa, are you ready to ask your 
questions? Five minutes to the gentleman from New York.
    Mr. Massa. Thank you, Madam Chair.
    And I apologize for arriving late, but I wanted to make 
sure and that the district I represent has flowing through the 
vast majority of the travel and engines coming from the Niagara 
area border and as to the New York Thruway.
    And so when the field hearing was held in the past, our 
area was a prime focus for these matters. And I apologize if 
this has been asked before, but as you know, the accessibility 
of passports, one of the main documents now required under this 
initiative, has some measure of significant backlog associated 
with it.
    And I have been hearing an awful lot of feedback from 
constituents in my district. And again I ask your patience if 
this has already been addressed. But to the individual that 
would be best qualified to answer this, can you help me with 
explanations that I can give to my constituents back home about 
what is being done, what can be done.
    People aren't really against having a passport. It is the 
delays and the complexity of obtaining them that I am hearing 
so much about. So to the individual best qualified to address 
this, if you could assist me, I would be deeply appreciative.
    Mr. Brennan. I would guess that is me. And currently, 
passports on our Web site we are indicating it takes 4 to 6 
weeks for regular application, 2 weeks for an expedite. These 
are basically the normal service levels that we have had for a 
long time.
    Right now there are no systemic backlog in the pipeline. We 
really have every confidence we can maintain those service 
levels as we move through this deadline and beyond.
    Mr. Massa. So, sir, if I could just recap. A month to 6 
weeks for a normal application----
    Mr. Brennan. Correct.
    Mr. Massa. And then 2 weeks for expedited.
    Mr. Brennan. That is what we are telling people, yes.
    Mr. Massa. Is there an emergency passport capability on 
weekends?
    Mr. Brennan. There is ways to get emergency passports by 
special arrangement.
    Mr. Massa. Yes.
    Mr. Brennan. That can be done at passport agencies.
    Mr. Massa. I would appreciate if you could communicate with 
my office what the procedure.
    I recently had a case of an individual who admittedly 
through their own fault, but, you know, but for the wisdom of 
the good Lord above, there we have all gone, have lost 
something on the weekend. And that individual had a medical 
emergency in the family back in the United States and was 
unable, and we did not know how to help to help that person on 
the weekend.
    I personally spent some humorous amount of time dialing 
through all the State Department numbers that were listed, and 
so if you could help me with that, I would be very appreciated.
    Mr. Brennan. Just to clarify, they were abroad, attempting 
to return?
    Mr. Massa. Yes. But I suspect that there are also cases of 
being at home, and a medical emergency of a loved one overseas, 
where they would have to travel in an hour.
    Mr. Brennan. If you could get us on the case, we would be 
glad to look into it. The capabilities around the world do 
vary.
    Mr. Massa. I ended up having a staff member go to the 
hospital and be with the family member, and then they came in 
on Monday. So everyone was happy in the end. But passports and 
their timeliness and their accessibility--and they should be 
hard. I don't say they should be something that you find in the 
box of cereal. I understand that.
    But if there are exceptions and procedures that I could be 
educated on for the benefit of my constituents, that would be a 
help.
    Mr. Brennan. In general, overseas passport--emergency 
passports can be obtained in a day. But as I said, the 
circumstances will vary, depending on where these people were. 
And we will be glad to look into it, if you give us the 
details.
    Mr. Massa. Thank you. And the last portion in a minute is 
costs. Can you speak just a few seconds about costs of 
passports?
    Mr. Brennan. Costs of passports currently I believe is $100 
for an adult. I would have to look up, quite frankly, the 
children's cost. The passport cards, $45 for an adult first-
time applicant, $35 for a child.
    Mr. Massa. Are there any exceptions made for--conveniences 
made for those who are an exceptional financial difficulty, 
especially during the times that we live in?
    Mr. Brennan. There is no sliding scale on the passports.
    Mr. Massa. No sliding scale.
    Mr. Brennan. No. People who already have a passport and 
wish to attain a passport card, because it is more convenient 
to use it to cross the border, the cost of that is $20 for a 
10-year document.
    Mr. Massa. Thank you very much, sir.
    Madam Chair, I yield back my time.
    Ms. Sanchez. I thank the gentleman from New York.
    We were just having a little discussion earlier about 
sliding scales and things of this sort, which I think in these 
times especially, or for the tribal units, for example maybe, 
but we will discuss that with our Foreign Affairs appropriators 
and others, I guess, or maybe with Ways and Means also. It 
would be a multi-jurisdictional issue.
    I think we are going to ask a couple of more questions 
before we dismiss this panel to get to our second panel.
    I actually have a couple of questions for you, Mr. Brennan, 
just so we make sure that your time appears well spent in front 
of us. I don't want you to think we are preferential to the 
Homeland people.
    With the deadline coming up in a few weeks, I was 
interested. You said that you were going to--I am sorry, that 
you learned from the past month's problems and that you have 
staffed up, and you have additional people to do passports and 
applications.
    I am interested in the trends of what you are seeing as far 
as what people are applying for. Specifically, have you noticed 
any relevant trends in passport applications and issuance as we 
approach the deadline?
    In other words, are we seeing more people along the 
northern border request these cards, or more from the southern 
border, or vice versa?
    And we also have some questions about the security features 
on the passport card. With the passport card now having been in 
use for a few months, can you talk to if you have seen any 
fraudulent cards and what you are seeing as far as the security 
aspects of the particular card?
    Mr. Brennan. We have some pretty good general information 
on trends. In terms of the cards specifically, card demand is 
going up. When I mentioned some figures in my opening 
statement, we were seeing about 20,000 card applications a week 
in October 2008.
    We are seeing between 40,000 and 50,000 a week now. That 
has been true since the beginning of April. We don't know how 
long that trend will occur.
    This is not a huge number of applications, given the total 
number of passport applications received in a week. The vast 
majority of Americans are documented with passports--90 million 
compared to one.
    But we have seen that. There is greater penetration for 
passports and passport cards in the border states in terms of 
percentage of population and then in the population as a whole. 
But it varies greatly.
    Some generalizations can be made other than that. The 
passport card uptake is higher on the southern border then it 
is on the northern border. It is particularly high in your 
state, which as an absolute number is responsible for the 
largest absolute number of passport cards, and the percentage 
of people who hold it was also close to the top, but not at the 
top.
    We have seen some other states take off from relatively low 
bases, Arizona in particular. Texas, which is looking low, is 
moving up. There are countervailing factors which affect 
passport card demand, such as availability of enhanced driver's 
licenses and things, so we see lower uptake in Washington 
State, which has a mature EDL program.
    So we have been tracking those trends closely, mostly to 
see, you know, what quarter we are hitting and where we are 
missing and reduce the penetration where we would expect it, 
which is in the northern and southern border, along with 
transportation corridors and reduce these trends continuing.
    You know we will get pockets, you know, where penetration 
is well above 40 percent of the total population for a WHTI 
compliant document. We issue either a passport or passport 
card. California as a state is quite high as well.
    Ms. Sanchez. Have you seen any fraudulent cards. Have you 
seen any?
    Mr. Brennan. You might want to add CBP as well, but we do 
talk to them. We have not seen any fraudulent cards per se. In 
other words, we are not seeing any attempts that I know of, or 
that I have been made aware of, to duplicate the card or 
produce a counterfeit of the cards that we have in circulation.
    What we do see is occurrences of the most prevalent fraud 
that we get for every card, which is imposture and look-alike 
fraud. In other words, people carrying legitimate cards and--
but it actually has been issued to someone else. Both have 
definitely been detected, both for the border crossing card and 
the passport card.
    And maybe Commissioner Winkowski might want to talk to 
that, but there is things with WHTI that actually I think will 
help our ability to focus on impostures in inspection.
    Mr. Winkowski. Certainly, you know the security features 
that are built into the card, the fact now that our officers in 
the booth can get all that information in front of him or her 
through our vehicle primary client out of WHTI.
    Before, it was a green screen with a bunch of numbers on 
it. Now that officer has got the picture, has got the number of 
crossings, when those crossings took place. So from the 
standpoint of keying in on those individuals that need a little 
extra scrutiny, that officer has got a full bag of tools.
    And your other question, Chairwoman Sanchez, just to give 
you a kind of comparison, when you look at the cards that we 
issue, the Trusted Traveler cards--for example, the NEXUS, you 
look at January 2007. We had about 2,800 applications in 
January 2007. January 2009, you know, 9,300.
    So we are seeing a spike. Up on the northern border, we are 
seeing individuals looking at their options and saying, ``Gee, 
I really want to be part of the Trusted Traveler program.''
    So that is a very significant growth. And we are up to 
date. We are current. We are turning those around in about 8 to 
10 days.
    Mr. Brennan. Sorry if I was a little obtuse with the 
question earlier about penetration, but the figures really 
appear at--was CBP's end. But our feeling, based on what we 
have seen, all right, with issuance trends and what they have 
told us is that frequent travelers have the message and have 
the documents right now to basically comply.
    Ms. Sanchez. Great.
    Mr. Brennan. There is always more that can be done, and 
there are populations that we know perhaps we need to continue 
to work with long after the deadline. But reduce the awareness 
out there, and we have made the ability to get the documents 
robust. And we will be able to supply them.
    Ms. Sanchez. Thank you, gentlemen.
    Yield some time to Mr. Souder for a few more questions.
    Mr. Souder. Yes, the problem is the gaps and where they 
are. If it was 170 million--is that what you said the total 
was--and 80 percent of that was covered, or 85?
    Mr. Winkowski. I said 270 million were.
    Mr. Souder. And that is the number of crossings or the 
number of people?
    Mr. Winkowski. The number of crossings.
    Mr. Souder. And you know what the number of people who 
across?
    Mr. Winkowski. I don't know.
    Mr. Souder. Because, you know, if you said the number of 
crossings, we are covering 80 percent of them, that means 50 
million crossings are going to run into a problem.
    Yet now, if that moves up another 5 percent, that is not 
like a little number.
    Mr. Winkowski. No, no, but I----
    Mr. Souder. And I am not proposing, as you heard earlier, 
that we delay, because quite frankly, at some point here that 
government's word for people, the 80 percent who have laid out 
the money, starts to become a real question.
    Here they have laid out hard cash, they have conformed with 
the system, and our credibility is sinking each year that we 
keep delaying. So I am not arguing a delay. And I also believe 
that your policy of agent discretion is important in this.
    But let me ask Dr. Barth. I assume you have a robust plan 
of feedback, that when agents are practicing discretion, that 
that is going to be fed back into the system for rapid analysis 
and attempted proposals to Congress to figure out how to do 
this gap before the 20 million all descend on our offices, or 
whatever percentage of them do.
    Mr. Barth. Yes, sir. The department is working very closely 
with all of our Northern border partners to make sure that we 
have an eyes open, fully aware system to make sure that if 
there is any fully unexpected problem at the northern or 
southern border, that we will be able to work with CBP to work 
around those problems immediately.
    The secretary has looked the acting commissioner of customs 
in the eye, and they have an absolute pact to make sure that 
this system will not fall apart----
    Mr. Souder. Because we are going to have questions like we 
talked about backlogs, different--you know, where we have 
little bursts.
    I am talking bout also a systematic evaluation, because I 
don't think it is too hard to figure out an estimation that two 
groups are going to be the bulk of the traveling that drops.
    One are the casual travelers, because if you have it with 
the job or you are right on the border, you are going to do 
that. One is going to be casual travelers. And if it is 
tourism, restaurants, shopping areas are damaged, 10 percent 
can put you out of business, that casual travelers are going to 
be part of it. And your people at the border are going to 
figure this out almost immediately.
    There is also going to be scuttlebutt. There is going to be 
letters, trying to get information in how we address that 
question.
    The other is people who have lost their jobs or are low 
income. And even if they were, now that is--I have raised this 
for years in our national parks have.
    If we are not careful, tourism or casual type behavior will 
become inaccessible to lower-income people in America, and that 
it is not like we don't have ways to do this.
    Reduced and free lunch programs require identification. 
There is all kinds of worries about, you know, if you came into 
a park and you had to show your reduced and free lunch, how do 
you do this type of thing? But there needs to be a creative way 
to address this question.
    For example, and that me just give you very personal 
example, in July I was--we are not in this position--I would 
have had no clue, because I started looking at I am going to be 
up along the north border and going into Canada. You can go to 
all the vehicles, Expedia, Orbitz and so on, be looking at 
hotels, all this kind of stuff--no warning that you need 
anything.
    You can go to the Web sites of the different tourist 
lodges, different programs of what you are looking at--no 
warning that this is coming. But unless you go to a travel show 
or live in an immediate border state, the second-tier, you are 
basically clueless.
    I saw nothing in researching a trip that suggested I was 
going to need something at the border. And that is kind of a 
warning that casual travelers--in other words, I don't go to 
Canada a lot, but I am only 140 miles from the border.
    And a significant percentage of my home area casually 
travel, but maybe once every 3 years, once every 2 years, or if 
they are visiting a relative, they could think of going over 
for dinner--oops, do I really want to get a card, because it is 
an unplanned visit.
    This is going to be the gap in the system, and we are going 
to have to figure out how to get that analysis. And I think we 
should be doing, and have prepared to go, a GAO study that just 
assumes and that you are internally studying this gap--similar 
on international travel.
    And I also want to say that I think the biggest promise is 
the state enhanced driver's licenses, and it is because if in 
New York, everybody is eligible, why would they need a card, 
right? Is that correct? If they have an enhanced driver's 
license in New York, Washington----
    Mr. Winkowski. Right, they would not. All they would need 
is their enhanced driver's license.
    Mr. Souder. So the enhanced driver's license is all they 
need to cross.
    Mr. Winkowski. That is right.
    Mr. Souder. So nobody in New York needs to get a passport 
card.
    Mr. Winkowski. Only if they apply for that feature, that 
enhanced driver's license feature. So, you know, you go in for 
regular driver's license, you don't want an enhanced driver's 
license----
    Mr. Souder. So it is not automatically----
    Mr. Winkowski. No, no.
    Mr. Souder. You have to request it.
    Mr. Winkowski. No. There is an extra fee associated.
    Mr. Souder. So are we working with states to try to get the 
state--this is what Washington and British Columbia were 
interested in working on, where every driver's license was in 
effect qualified.
    Mr. Barth. The driver's license issue is a complicated one, 
far more than it appears. The U.S. federal congressional he 
mandated standards as they now exist for driver's licenses 
address 50 states, the territories, for certain features that 
do not include the WHTI enhancement of the microchip that 
contains a number that provides the photograph for the customs 
inspector to expedite and facilitate the traveler.
    It costs extra to have that feature, and the department has 
been working aggressively with all the border states, both 
north and south, to get them to a point where they will offer 
their citizens the enhanced driver's license with that chip, 
but it is not a requirement----
    Mr. Souder. So if I am a New York driver, how much is that 
likely to cost me for my enhanced driver's license versus the--
--
    Mr. Barth. Typically, it costs about $15 to $20 more, but 
it varies from state to state. The state controls the added 
cost.
    Mr. Winkowski. We have got Washington State. We have got 
Vermont, Michigan and New York, and continuing to, and a number 
of provinces in Canada, so where we are making inroads there.
    We want to give people choices. I mean, we want to give 
them choices. I mean, when you look at the border, at the 
passport card, that was really something that came up from the 
public, that they wanted some kind of document that was 
convenient, something they could put in their wallet.
    Then you had the states jump on it from the standpoint of 
the enhanced driver's license. So I wanted to give people 
choices--Trusted Traveler. You want to, yes, you want to bring 
a passport around, you can do that also. So we wanted to open 
that up and not say this is the only document or these are the, 
you know, two documents you can have.
    Mr. Souder. Thank you.
    Ms. Sanchez. I will recognize the gentleman from New York.
    Mr. Massa. Thank you, Madam Chair. I would like to 
associate with myself with the comments of the ranking member.
    I think you get some points, but I would like to perhaps 
place myself on report, if I may. I know it is just those of us 
here in the chamber. I am a New York driver. I just got a 
drivers license. How do I know if it is enhanced or not?
    And I offer that question, because I would consider myself 
to be kind of informed some days, but when I went to get my 
driver's license, I saw no literature, no posters, no 
information. No one asked me the question. I had no knowledge. 
And I got this in October of last year, arguably before I had 
the honor of being seated.
    And this drives to real fundamental question. What can we 
do, as this date approaches in a month, to have regional or 
local media? I know that we are going to be putting a great 
deal of effort in my office on this, because I expect a tidal 
wave of phone calls.
    How can we avoid those problems, and are there any plans 
for some communication from the federal government to our 
constituents?
    Mr. Winkowski. Absolutely. First of----
    Mr. Massa. Oh, they can feel free to check my license. I 
just don't know if it is enhanced or not.
    Mr. Winkowski. New York has issued 60,000. I don't believe 
that they started in October. It was just recently that they 
began issuing the enhanced driver's licenses.
    To your other question----
    Mr. Massa. I am providing a sample for consideration here. 
I am not used to surrendering my license to uniformed officers.
    Mr. Winkowski. It would say ``enhanced driver's license.''
    Mr. Massa. It would say it.
    Ms. Sanchez. You can ask for it. You can get it.
    Mr. Massa. Yes, I didn't know. I mean, I just----
    Mr. Winkowski. Well, I am not sure when. New York just 
recently began this, and I am not sure they were issuing them 
in October. I can get you the exact month that they were doing 
that.
    Mr. Massa. No reason. I am illustrating this as a potential 
challenge, and I would----
    Mr. Winkowski. The other question you had regarding, you 
know, the outreach. You know, we continue to have a very, very 
aggressive outreach in all the northern border locations and 
the southern border locations.
    I have been up in Buffalo area on business, and there is 
billboards, there is all kinds of advertisements on TV, print, 
media, certainly a lot of news on this out of the various 
Buffalo----
    Mr. Massa. Would the department be open to a mailing?
    Mr. Winkowski. In what regard?
    Mr. Massa. Well, you find that when people receive things 
at their home addresses, they tend to be aware and pay 
attention. And it is something with which we have some 
experience. I am wondering if the department might be willing 
to do that.
    Mr. Winkowski. Well, I think at this point what I would 
like to suggest is that we bring this up June 1st, and then we 
do our gap analysis of how we are doing from a complying 
standpoint? Do we have specific areas that are not complying, 
because perhaps we didn't do a good enough job in reaching out 
to that particular area, and look at an option like that of 
doing flyers.
    We are coming up on June 1st. We can get, I think, much 
better picture of how this is going to shake up from the 
standpoint of compliance. Like I said earlier when you weren't 
you here, we are anticipating--right now we are at 80 percent 
compliance rate. We anticipate a higher rate----
    Mr. Massa. I thank the commander, and I placed myself in 
the 20 percent that is noncompliant, so----
    Mr. Barth. If I could add, Sir----
    Ms. Sanchez. You have a passport, don't you, Eric?
    Mr. Massa. Yes, I do.
    Ms. Sanchez. Well, then you are compliant.
    Mr. Barth. If I could add, the department has run 
television and radio spots over 21,000 times, particularly on 
the border states, while we have issued print advertisements in 
local northern and southern state print media, 124 times. We 
have advertised widely, the Web site that is available that 
tells you how to get what you need.
    And the CBP at the border particularly focus on that 20 
percent. They have handed out over six million tear sheets to 
those particularly who are noncompliant for the past number of 
months--tear sheet that it says what is the problem, why you 
need it, and what the variety of cards are that you can get and 
where you can get them.
    So I think a mailing is an additional excellent idea. I 
think we did take that fact and consider it, particularly if 
the compliance rate stays lower than we would like. I think we 
have reached----
    Mr. Massa. And I thank the Department, and I commend them.
    I just had my own experience, and I know that I am going to 
focus on this back in the district over the next 3 to 4 weeks, 
because I know what will happen, especially during the summer 
months, and the importance to the tourist economy in upper 
Western New York State. It is just critical.
    So thank you very much.
    Mr. Winkowski. I understand that. And just to add that our 
Web site, since it has been created, over 390,000 visitors. And 
our advertisement that Dr. Barth talk about, over 275 million 
but they call impressions, people watching these commercials.
    So I think we have done a very effective job of reaching 
out. We will know more as time goes on, because our work 
doesn't stop on June 1st. We have additional work to do.
    Mr. Massa. Thank you, sir.
    And I yield back. Thank you, Madam Chair.
    Mr. Brennan. If I could add a point or two, our media 
spending in the last month before the deadline is going to 
focus very heavily on newspaper, radio and magazines 
specifically in the border tier.
    So we are going to continue to look at that--and not 
mailings, but we do and have done things like e-mail blasts, 
looking for a target demographic in those areas and sending e-
mails about WHTI.
    But I understand the concern about reaching general 
audiences, but there had been national parts of this campaign. 
And our general Web site, travel.state.gov, which is one of the 
most visited in the U.S. government, features this.
    And we have, I believe, looked at and I think implemented, 
but I don't have the media plan in front of me, things like 
banners on things like Orbitz or other travel sites like that 
and use that in the tact to reach this general audience, their 
second-tier audience.
    But certainly more needs to be done, and we will continue 
to work on this.
    Mr. Massa. Thank you, sir.
    I yield back.
    Ms. Sanchez. Thank you to my colleague from New York.
    And I would just add that Mr. Souder suggested that, just 
from that standpoint of being a district that would have 
travelers that would go across the northern border, for 
example, we might ask if the departments have an insert that we 
could put into whenever we do a Congressional mailing to some 
of our own constituents in areas like that. That might be a 
good thing to have.
    Mr. Souder. Madam Chair, if I can, I was just talking to 
our esteemed director, that perhaps in the next--ideally, next 
week or the next week, but particularly those on the immediate 
border, if the department could come over--I understand you are 
going to deliver a pack of materials--but to say this is where 
we did our ads. This is what we have planned. This is what the 
billboards look like.
    This is because we may have suggestions. Clearly, there are 
some gaps here. If you have 80 percent covered, you have 
clearly reached out pretty effectively to the day-to-day 
crossing that were. But there are going to be gaps here, and 
the next part we do for business is we market and how to be 
creative with some of the different agencies for the gaps we 
are hitting it, and also how to respond and how to use our 
office.
    In fact, the emergency number--every single office runs 
into this weekend thing, that if there was a way, and most of 
the--let us say a significant percent are going to call our 
offices. And so if there is a way that our offices had an 
emergency number, there are ways to interact here, because the 
other alternative is for them to yell at us, and then you all 
get yelled at when you come up.
    Ms. Sanchez. Thank you, Mr. Souder.
    I am going to excuse the panel. Thank you for being before 
us. I excuse the panel. Tried to get the next panel up, which 
has two members on it. And we are going to try to get your 
testimony in, because we have just had the bells ring on the 
floor, so if we could make that switch pretty quickly.
    I welcome the second panel of witnesses. Because of the 
crunch in time, I would ask the witnesses if they could 
summarize, if you can, in even less than 5 minutes, it would be 
great.
    Our first witness is Ms. Maria Luisa O'Connell, president 
of the Border Trade Alliance, a grassroots nonprofit 
organization that serves as a forum for participants to address 
key issues affecting trade and the economic development in 
North America.
    And our second witness is Mr. Angelo Amador, director of 
immigration policy at the U.S. Chamber of Commerce. He is 
responsible for working with the business community to develop 
the chamber's position on a number of issues, including border 
security.
    Without objection, the witnesses' full statements are 
inserted into the record. And I will ask Ms. O'Connell to 
summarize her statement in 5 minutes or less, if possible. 
Again, we have a vote on the floor, so we are trying to get 
this in.

  STATEMENT OF MARIA LUISA O'CONNELL, PRESIDENT, BORDER TRADE 
                            ALLIANCE

    Ms. O'Connell. Okay. Thank you so much, Madam Chairwoman 
Sanchez and Ranking Member Souder, for having us here.
    I am not going to read it. I am just going to try to wing 
it and try to do it in 5 minutes or less--maybe just three 
points that we need to remember.
    One, there is a unique approach that we have to make at the 
U.S.-Canada and the U.S.-Mexico border in terms of how the 
implementation is being presented. Our constituents from the 
U.S.-Canada border tell us that technologically speaking, 
everything is ready. DHS and DOS have set up everything in 
place.
    The economic impacts of WHTI have already been felt for the 
past 2 years. We have lost the casual traveler. And Member 
Souder, we have lost them. Businesses have lost a lot of the 
daily or just continuous traveler that wanted to go back and 
forth, or if they are going to a Detroit Lions football game, 
we said the team is going to win. That is a bad joke. Or go to 
a----
    We have seen those travelers come down. So the challenge in 
the U.S.-Canada border has been what are the economic impacts 
that we already are feeling, and how are we thinking in the 
border, adding more layers?
    On the U.S.-Mexico border, the challenges that we have had, 
and we are very concerned, is are we going to take a step 
forward from the--I mean, we are getting hit many ways on the 
U.S.-Mexico border.
    On the U.S. American border, they just kind of what we feel 
about the economy, but also we have other factors around the 
U.S.-Mexico border. And the chances that we have seen there is 
we don't have enough infrastructure, both borders, to--but we 
have enough staff.
    And three, people on the U.S.-Mexico border have a harder 
problem of getting IDs on time or the passports on time, 
because our U.S. post offices cannot keep up with what the 
demands have been.
    So that is what we have heard, people having to travel 50 
or 40 miles far away. So that is one thing that we need to 
acknowledge. And for this committee, it is important that we 
cannot have a blank policy, or a one size fits all policy for 
both borders, because we have many challenges in both borders.
    The second thing in infrastructure, I think our powers from 
CBP were very kind of saying, yes, you have been very gracious 
to give us $720 million, but all due respect, that is a drop in 
the bucket. That is nothing when you look at it that last year 
the U.S. land ports of entry generation $830 billion with a B. 
We got $720 million with an `M'.
    And when we talk to many at the station because it blows my 
mind, and we are not investing that in the infrastructure. And 
when we have to manage expectations, if Congress wants to keep 
up with all of this legislation, then we are going to have to 
give the resources to the officers on the ground.
    The third point is that we cannot forget this is the first 
time that CBP is going to implement 100 percent requirement 
verification of ID. So history has not been on the side of the 
government. They have done a great job during which I think 
they have been very resourceful of going to events and 
communicating, but the challenge that we are waiting to see and 
our concern is when June 1st comes back, if the system goes 
down.
    I had a picture that unfortunately I couldn't show because 
the committee did not allow me or something. But it is when the 
system went down in Nogales, and it is an IBA system, this is 
the largest system for the commercial site.
    The port was closed for 6 hours, 6 to 8 hours. There were 
lanes of four--a port that is two lanes had four lanes of 
trucks in line. And the system went down. No one could do 
anything. And no one was talking. Well, it is not our problem.
    Finally, someone had to go in the middle, and we are 
talking 100 degrees, and we are talking about 60 percent of the 
lentils--probably that we all enjoy, because we all eat our 
pods, right--comes through Nogales, sitting on the heat.
    So we have to be prepared for those types of things, so we 
have the infrastructure and the resources, the staff resources, 
to do it. And so that would be 5 minutes or less, trying to 
summarize some of the highlights. I think my testimony is 
submitted, but if there is time for any questions, I would like 
to address some of these issues.
    [The statement of Ms. O'Connell follows:]

              Prepared Statement of Maria Luisa O'Connell

    Good morning Madam Chairwoman Sanchez, Ranking Member Souder and 
other distinguished Members of the Subcommittee. Thank you for inviting 
the Border Trade Alliance (BTA) to participate in this important 
hearing focused on balancing security and travel at our land ports of 
entry. My name is Maria Luisa O'Connell and I serve as the President of 
the Border Trade Alliance.
    For the past 23 years, the BTA has been involved with all aspects 
of trade, travel, security and commerce in our border communities along 
the U.S.--Canada and U.S.--Mexico borders.

About Us
    Founded in 1986, the BTA is a tri-national, grassroots, non-profit 
organization that serves as a forum for participants to address key 
issues affecting trade and economic development in North America.

Who We
    Are The BTA represents, through our members and sponsors, a network 
of more than 2 million public and private sector representatives, 
including: business leaders, area chambers of commerce and industry, 
academic institutions, economic development corporations, industrial 
parks, transport companies, custom brokers, manufacturers, and federal, 
state, and local government officials and agencies.

Our Vision
    The BTA's vision is to be the recognized leader in authority for 
the facilitation of international trade and commerce in the Americas.

Our Mission
    Our core values include a commitment to improving the quality of 
life in border communities through the development of trade and 
commerce, and a commitment to work as a community-based grassroots 
organization.
    Madam Chairwoman, in addition to sharing the Border Trade 
Alliance's position and recommendations on the Western Hemisphere 
Travel Initiative (WHTI), my testimony today will also touch upon on 
several key policy considerations that the Border Trade Alliance urges 
this committee to keep on hand as you work to oversee the work of the 
Department of Homeland Security (DHS), in your committee's refinement 
of existing federal border security programs, and in the development of 
any future similar initiatives.
    The pending implementation of the Western Hemisphere Travel 
Initiative (WHTI) on June 1st of this year at U.S. border crossings is 
likely to have the largest impact on the land border crossing 
experience of any of the secure traveler programs to date. While 
SENTRI, NEXUS, FAST and other programs are voluntary in nature, WHTI 
will become a mandatory requirement for all U.S. citizens traveling 
within North America and the Caribbean.
    The BTA has been integrally involved in all of the various secure 
traveler programs put forth by Congress and implemented by the federal 
government. The BTA supports efforts to increase security for 
legitimate trade and travel at both our international borders.
    Our border communities, along our shared borders with Canada and 
Mexico, support diverse international economies that are dependent upon 
cross-border trade and travel. A large percentage of traffic at our 
borders is repeat, daily crossers who account for a significant portion 
of the sales tax and commercial revenues generated in our border 
communities, and are responsible for conducting the more than $2 
billion cross-border trade that occurs at our land ports each and every 
day.
    The policies and procedures designed to facilitate secure trade and 
travel at our borders have changed dramatically during the past decade. 
The changes at our borders have not occurred without reasonable 
concerns about their impact on legitimate trade and commerce. 
Similarly, the incredible growth in trade at our borders has not been 
without its share of growing pains. The infrastructure at our border 
crossings, for the most part, has not kept up with the increased volume 
of trade and travel.
    U.S. land ports of entry last year conducted a record $830 billion 
in cross-border trade. According to the U.S. Department of 
Transportation Bureau of Transportation Statistics in 2008, U.S. land 
border crossings processed 45.7 million pedestrians, more than 10.7 
million trucks and more than 107.5 million personal vehicles.
    The pending implementation of WHTI is a serious concern shared by 
border stakeholders throughout North America.
    Therefore, the question posed in the title of this morning's 
hearing on WHTI is very appropriate. Are we ready?
    Speculation and anecdotal evidence varies from hopeful optimism to 
fearful pessimism about the prospects of WHTI implementation at land 
border crossings. Truthfully, until June 1st arrives the jury is out on 
how successful this transition will be at our land ports of entry.
    The BTA does wish to recognize DHS and the Department of State's 
collaborative WHTI team. DHS and DOS have both been very open to 
working with border stakeholders as they work to implement this very 
large federal security program, which was mandated by Congress several 
years ago.
    There are two different major questions we need to address 
regarding our preparedness for the implementation of WHTI at land ports 
on June 1st of this year. This first being the obvious question of is 
the traveling public aware of and able to obtain the necessary 
documentation, Passports, PASS Cards, enhanced driver's licenses, etc., 
needed to comply with the June 1st requirement? The second question is 
one that has many border communities and cross-border commercial 
interests concerned. Are we prepared for the May 7, 2009 Written 
Testimony of Maria Luisa O'Connell, President, The Border Trade 
Alliance Before the House Homeland Security Subcommittee on Border, 
Maritime and Global Counterterrorism economic consequences of the June 
1st implementation? Are we prepared to handle any delays that result at 
our land ports of entry? What impact will WHTI have on tourism 
generated border crossings? What is the cost impact of compliance with 
WHTI on cross-border businesses? Families? Communities and local 
government?
    Secondly, the BTA would like to point out that the implementation 
of WHTI, as is the case with all U.S. border policies and programs, 
impacts our borders with Canada and Mexico uniquely. While BTA members 
from the U.S. border with Canada report that the necessary 
technological infrastructure is in place and that DHS, DOS and local 
port authorities have done an excellent job of communicating the 
upcoming requirements to the traveling public, they also report that 
WHTI has already had a negative economic impact in terms of reduced 
crossings by tourists, an important source of cross-border economic 
activity in many U.S.-Canada border communities.
    Along the U.S. border with Mexico, WHTI is a cause for concern as 
it represents yet another potential deterrence for U.S. citizens to 
visit Mexico for work, to visit families or for tourism. Concerns from 
BTA members along the Southwest U.S. border include the ability of 
citizens to readily obtain the necessary documentation in a timely 
manner. Several BTA members have reported that it is now necessary to 
travel well into the interior to places such as San Antonio, Texas or 
Phoenix, Arizona to be able to obtain an appointment to apply for a 
U.S. Passport or PASS Card as facilities at the border, primarily U.S. 
Post Offices, are unable to handle the amount of requests. There are 
also continued concerns about the public's awareness of WHTI when 
traveling across the U.S.-Mexico border.
    The BTA would like to expand briefly upon the earlier point 
regarding the unique impact that U.S. federal border policies and 
security programs have at our shared borders with Canada and Mexico. It 
has become apparent during the past decade that all too often during 
the deliberation and development of U.S. border policy, the prevailing 
mindset in Washington, D.C. is that one-size fits all. While there are 
shared underlying issues along both the U.S.-Canada and U.S.-Mexico 
borders, such as the ongoing need to invest significantly to increase 
capacity and update infrastructure at our busiest land ports of entry, 
there are many challenges and complex dynamics that are unique to the 
U.S. border with our NAFTA partners. The BTA strongly urges this 
Committee, Congress and the Administration to not neglect our unique 
bi-lateral relationships with Canada and Mexico along with the 
individual needs and concerns of these bi-lateral relations in pursuit 
of a one-size fits all, national border policy.
    In anticipation of the upcoming implementation of WHTI the BTA 
would like to raise several additional questions to this committee as 
well as to DHS and DOS, both of which are tasked with managing this 
newest federal secure traveler program.
    Does the present passport and PASS Card reader technology have 
sufficient redundancy to ensure minimal delays if there are any issues 
with this technology? In short, what is the backup plan should these 
readers, our their associated communications network go offline?
    Have DHS and DOS assessed what geographic areas or regions are 
handling the greatest volume of Passport or PASS Card applications and 
are those areas fully able to handle this volume of applications?
    What steps have been taken or are being planned by DOS and DHS to 
ensure that they can quickly dispatch the necessary resources to 
process Passport and PASS card applications in areas of greatest need?
    Have DHS and DOS considered expanding the acceptance of the PASS 
Card under WHTI for air travel within North American and the Caribbean? 
Do the departments have sufficient flexibility to accommodate this 
expansion of the PASS Card or does it require an act by Congress?
    Are CBP staff adequately trained and do they possess the 
appropriate resources to rapidly process state-issued Enhanced Driver's 
Licenses at land ports located outside the state that issued them?
    What are the standard metrics for measuring passenger traffic 
compliance? Commercial driver compliance? Changes in passenger traffic 
volume? Changes in commercial traffic volume? Increase in referrals to 
secondary inspection? Changes in processing/crossing times as a result 
of WHTI implementation?
    These are a few of the questions that BTA members have continued to 
ask in advance of the June 1st deadline for implementing WHTI.
    Much of what the BTA advocated for early and often during the 
development of WHTI has come to fruition: the development of a low-
cost, wallet sized alternative passport document or PASS Card; the 
timely installation of tested technology at all U.S. border crossings; 
the acceptance of other federal security documents such as NEXUS, 
SENTRI or FAST cards under WHTI; and the sustained public education 
efforts by DHS and DOS.
    The BTA is appreciative that Congress, including many of those 
present today at this hearing, took stock in the early recommendations 
made by border stakeholders to ensure that WHTI could be as successful 
as possible on day one. As that date rapidly approaches the BTA urges 
this Committee, Congress, DHS, and DOS to ensure that WHTI is a success 
beyond June 1st and that it not only serves as a benefit to our 
improved security but that it also enhances the efficiency of 
processing the millions of travelers who cross annually at our land 
ports of entry.
    We must remind ourselves that 100 percent verification of federally 
issued travel documents for U.S. citizens at our land ports of entry is 
a new responsibility for U.S. Customs and Border Protection (CBP). CBP 
must continue to be given the adequate resources to be able to staff 
the new workload created by WHTI.
    Further, Congress needs to do more to address the decades old, 
backlog of infrastructural investments needed at U.S. land ports of 
entry, the majority of which were designed without anticipation of the 
vast federal security operations now present at all U.S. border 
crossings. The $720 million included for land port infrastructure 
upgrades as part of the American Recovery and Reinvestment Act was a 
very appreciated step forward. However, with the exception of the 
Mariposa, Arizona and San Ysidro, California ports of entry, the 
majority of projects funded by CBP and the General Services 
Administration using these stimulus dollars were for small land ports 
of entry with low crossing volumes. If we are to ensure for the success 
of WHTI and our ability to generate more national economic activity 
through trade, we need to reinvest more than 8/10ths of a percent of 
the economic activity generated by our land ports toward enhancing 
trade and travel facilitation. Congress needs to ensure that what is 
funded provides the biggest return for the taxpayers' dollars in terms 
of increased economic activity.
    In closing, I would like to share several of the BTA's key policy 
points for Congress and the Administration to consider in regard to 
federal border policy development and delivery:
    Successful border security efforts require the utilization of risk-
based assessments based upon real-time intelligence to direct the most 
efficient allocation of scarce federal resources in order to attain the 
greatest security benefit.
    The Department of Homeland Security should assume the leadership 
role among federal agencies in conducting a performance and utility 
assessment of the multiple layers of federal security programs and 
policies that currently govern legitimate trade and travel along the 
U.S. shared borders with Canada and Mexico.
    DHS, in conjunction with its federal agency partners, needs to 
collaborate to expedite the approval process for the prioritization, 
selection and funding of land border infrastructure projects that 
improve the facilitation of cross-border trade and travel.
    Congress should ensure that scarce federal dollars are committed 
toward programs, policies, and projects that result in the greatest 
benefit in terms of economic and physical security.
    In conclusion, I would like to thank the Chair and Ranking Member 
along with all the Members of this Committee for its focus on the need 
to achieve a balance between security and facilitation of legitimate 
travel at our borders. The BTA offers its assistance to you in working 
to identify solutions to these important border issues.
    The Border Trade Alliance is honored to participate in this hearing 
and it will be my pleasure to address any questions you may have.

    Ms. Sanchez. Thank you, Ms. O'Connell. Thank you for your 
testimony.
    And I will now recognize Mr. Amador to summarize his 
statement in 5 minutes or less, please.

  STATEMENT OF ANGELO AMADOR, DIRECTOR OF IMMIGRATION POLICY, 
                    U.S. CHAMBER OF COMMERCE

    Mr. Amador. Will do. A lot of the things have already been 
said, you know, the question as to what is plan B? You know, 
what are they going to do when they face these kinds of 
problems.
    And also it is how do we measure wait time. You know that 
is a big problem, because WHTI is not being implemented in a 
vacuum, and we need--they talk about the delays, they talk 
about the lack of sufficient officers, you know.
    And I will mention two bills that we are supporting, the 
Ports Act that we ask that if you can co-sponsor, that will be 
great. And it would provide 5,000 additional CBP officers. We 
don't think 65 is enough, and most of that is talking about, 
you know, inspecting for weapons and other things, not to 
facilitate travel.
    It also provides--and the bill number is 1,555--it also 
provides for 350 additional support personnel and 1,200 
specialists at CBP. And it authorizes $5 billion with a B, 
because that is what all the studies say that they need to 
address infrastructure.
    Now, when they measure what success--you know, if they went 
and said tomorrow 100 percent of the people crossing the border 
are coming in with WHTI documentation--I will ask the question, 
what happened to the other 20 percent, because we already know 
that travel has decreased.
    I have family in Buffalo. I have families in Syracuse. They 
have a level of expertise, being professional engineers--and 
they stop to going to Niagara, as they used to do with their 
families, just for lunch or just to see the falls, because they 
thought the passport requirement was in place.
    And I told them, well, actually, you don't need it for your 
kids and actually could get a license. Now they are all waiting 
for renewal of the license to do that, but you know the 
question of who is showing up and who is not showing up is 
actually for us also more important.
    That is why we are also supporting the Travel Promotion 
Act, which passed the House last year, which would provide a 
public-private outreach campaign, you know, for these new 
policies, and also to show the good side of the United States 
so that people abroad, especially in the borders, would not 
only hear about security, but also hear about all the other 
things.
    They have done a better job at public relations, why the 
office of public relations at CBP has a toolkit out. We have 
been working with them. Last year they thought that the best PR 
campaign watches the negative publicity in the newspaper. We 
disagree with that, but there is still changes.
    One, we need flexibility in June. We are not asking for a 
delay, but they need to be flexible. They need to try to expand 
the exceptions--for example, the under age 16.
    They acknowledge that at 16 is when you can get an adult 
passport and a license, but you know we need the exception to 
apply for kids that are 16 years old, because unlike, you know, 
the wishes of many teenagers, you don't get your license when 
you wake up on the day of your 16th birthday.
    There are other extensions, and there are things that can 
be done again through regulation. They don't even need 
legislation. For example, if they have a passport card that is 
good for travel across the land borders, it should be good for 
air travel as well. We don't understand why that requirement is 
not so, except for, you know, would foreign requirement work in 
the part of the agents, but it will facilitate travel.
    You know, if you drive to Canada, then an emergency comes 
up, you should be able to fly with the same identification, and 
also because we hear from people on both borders that is easier 
to carry the passport card.
    I am sure that a lot of us, or all of us, maybe have a 
passport, but we don't carry it with us. If you have a passport 
card in your wallet, you would be able to travel to 
emergencies.
    I just for me offices, when you talk to people in the 
southern and northern border, they tell you, you know, they 
will go across to, you know, Laredo or across Niagara, you 
know, just for lunch, and they usually leave their passports at 
home.
    So we need to do a better job of disseminating, because we 
want to make sure that, you know, 50 million is a lot of 
crosses, and we want to make sure that these people, the 
reaction is not, well, let us just not go.
    With that, I will stop, and I am happy to take your 
questions. However, I would also point out that--thank you, 
staff, this is some of the best staff that I have worked with. 
I wish the staff on the Judiciary Committee was as good as this 
one, particularly Mandy Bowers, I believe, has asked any 
questions that you may ask, and Patricia Savale, somebody I 
have worked with for years, so--you know, they usually go 
thankless, so I just want to take this opportunity to do that 
as well.
    Thank you very much.
    [The statement of Mr. Amador follows:]

                 Prepared Statement of Angelo I. Amador

Indroduction
    Thank you Chairwoman Sanchez, and members of the Subcommittee, for 
the opportunity to present today on the implementation of the Western 
Hemisphere Travel Initiative (``WHTI''). In addition, I would also like 
to thank all of you who voted in favor of key amendments in 2006 and 
2007 to help guarantee that WHTI is implemented properly and 
efficiently. The Chamber urges you to continue your excellent oversight 
of this important program.
    I am here today in two capacities, as Director of Immigration 
Policy for the United States Chamber of Commerce (``Chamber''), and as 
Executive Director of the Americans for Better Borders Coalition 
(``ABB''). The Chamber is the world's largest business federation, 
representing more than three million businesses and organizations of 
every size, sector, and region. ABB is a coalition that unites regional 
business organizations and a wide array of companies and national trade 
associations working to ensure the efficient flow of tourism and goods 
across our borders while addressing national security concerns.
    Also, the Chamber serves jointly with the Council of the Americas 
as the Secretariat of the U.S. Section of the North American 
Competitiveness Council (``NACC''), a trilateral advisory group of 
business leaders from Canada, Mexico, and the United States. The NACC 
was formed in 2006 to provide a voice for the private sector and engage 
them as partners in enhancing North America's competitive position in 
global markets, promoting increased employment, and fostering a higher 
standard of living.\1\
---------------------------------------------------------------------------
    \1\ The NACC has offered recommendations to the three governments, 
both within and building upon the Security and Prosperity Partnership 
of North America (``SPP''), to enhance the secure flow of people, goods 
and services in North America, please see ``Meeting the Global 
Challenge: 2008 Report to Leaders from the North American 
Competitiveness Council'' http://www.uschamber.com/publications/
reports/0804_global_challenge.htm.
---------------------------------------------------------------------------
    These comments reflect the information and concerns expressed to 
date by our members on the implementation of WHTI. To be clear, the 
Chamber is committed to continue working with Congress and the 
Departments of Homeland Security and State to successfully and 
efficiently implement WHTI. The efficient movement of people, goods and 
services and a secure border are not mutually exclusive or competing 
objectives. In fact, ``the primary mission'' of the Department of 
Homeland Security (``DHS'') includes ``ensur[ing] that the overall 
economic security of the United States is not diminished by efforts, 
activities, and programs aimed at securing the homeland.''
    Like you, the Chamber strongly supports strengthening the security 
of our nation. The Chamber continues to support a multi-layered, risk-
based, approach to enhance security at all of our ports of entry, while 
at the same time facilitating trade and transportation of both products 
and people. The Chamber would also like to see increased cooperation 
between the United States and its neighbors to secure our homeland. A 
unilateral approach alienates our neighbors and has a negative impact 
on both security and the economy.
    Considering the economics of this debate, we must understand that 
cross border mobility is a critical component to most of our member 
businesses as well as the overall economic stability of the U.S. The 
economic downturn is having a dramatic impact on the movement of goods 
and people across our borders.
    Due to the downturn, we are seeing a large decrease in all types of 
crossings, yet at the same time the average inspection time has 
increased. Over the next year or so, as our economies begin to recover, 
the structural problems at the border will reemerge in the form of 
unacceptable border delays. We must be prepared for this resurgence of 
demand. It is important to remember the summer of 2007, which saw the 
longest delays since 2001 for U.S. bound traffic.
    It is important to note that WHTI is not being implemented in a 
vacuum. The difficulties and confusion that arise from new regulations 
have a profound impact on our economic security. Inefficiencies at the 
border threaten our global competitive advantage, and WHTI places 
further pressure on our eroding infrastructure, which will harm 
legitimate commerce, trade and tourism.\2\
---------------------------------------------------------------------------
    \2\ For a detailed discussion of other border issues, please see 
``Finding the Balance: Reducing Border Costs While Strengthening 
Security.'' U.S. Chamber of Commerce and Canadian Chamber of Commerce, 
February 2008, http://www.uschamber.com/publications/reports/
0802_finding_balance.htm.
---------------------------------------------------------------------------
    Increased delays at the border due to poor WHTI implementation 
would not only affect border communities and last minute travelers, but 
would also impact the entire North American economy by slowing down 
commerce. Seamless WHTI implementation could still harm our economy if 
it leads to diminished travel and tourism.
    The northern border is the site of our largest bilateral trading 
relationship in the world, with U.S.$1.6 billion \3\ in two-way trade 
and 300,000 travelers crossing the border on a daily basis. Major 
benefits flow from this relationship, including 7.1 million jobs in the 
United States and 3 million jobs in Canada.
---------------------------------------------------------------------------
    \3\ U.S. Department of State. 2008. ``Background Note: Canada''.
---------------------------------------------------------------------------
    Congress and the Administration deserve credit for many positive 
changes to WHTI, since it was first announced, and I will discuss those 
in my statement together with the Chamber's recommendations for 
improvement in the context of the final rule published on April 3, 
2008. However, before discussing WHTI, I would like to take this 
opportunity to address certain border issues and make several 
recommendations to facilitate legitimate trade and travel across our 
land borders. Focusing solely on implementing WHTI efficiently without 
a holistic approach to other border issues will not lead to an 
efficient and secure border.

Existing Delays at the Borders
    The Chamber is concerned that the U.S.-Mexico and the U.S.-Canada 
border crossings are increasingly becoming a competitive disadvantage 
when compared to the rest of the world. The Chamber is troubled that 
security concerns are not being balanced with economic interests in the 
border management decision making process. Thanks to both the North 
American Free Trade Agreement (``NAFTA'') and the closely connected 
economies of the U.S., Canada, and Mexico, the North American supply 
chain for many companies is tightly integrated.\4\
---------------------------------------------------------------------------
    \4\ For a full discussion of the substantial economic gains to the 
three countries from NAFTA, please see ``The Economic Benefits of 
NAFTA'' from the Canadian-American Business Council, April 2008.
---------------------------------------------------------------------------
    While Europe moves towards a more integrated border environment, 
the United States is unilaterally moving towards a system that is 
threatening the competitive advantages we gained through NAFTA. For 
companies that rely on just-in-time delivery and an integrated supply 
chain, the impact of border delays, fees and stringent security 
procedures are magnified as their products are required to clear 
customs multiple times in the manufacturing process--creating a 
competitive disadvantage.
    In the already struggling automotive industry, parts cross from 
Canada and Mexico multiple times, heading to plants throughout the 
United States, whether it is to a long-existing assembly plant in 
Detroit, Michigan, or a newer one in San Antonio, Texas. In the food 
industry, a vegetable grown in the United States may find its way into 
a product that is processed just across the border in Canada or Mexico 
and then shipped back to the United States.
    Thus, delays at U.S. ports of entry not only harm Canadian and 
Mexican processors--it backs up the entire supply chain, affecting our 
own farmers, car manufacturers and numerous other sectors of our 
economy. In addition, delays at U.S. ports have also resulted in 
trucking companies significantly raising prices to ship products and/or 
companies in the U.S. opening storage facilities to keep inventory. 
These increased costs are multiplied and passed down to the American 
consumer in the form of higher prices for goods and services. Further, 
there is an impact to the local environment, as commercial and 
pedestrian crossing vehicles sit for hours in delayed traffic burning 
fuel and emitting fumes.

    a. Measuring Border Wait Times
    WHTI is still weeks away from full implementation and already we 
are seeing wait times at the border increasing. To address this issue, 
DHS should become more engaged with its counterparts in Canada and 
Mexico, as well as industry representatives, to reach an agreement on 
proper measurements for border wait times. Data from the private sector 
on border wait times vary widely when compared to the data kept by U.S. 
Customs and Border Protection (``CBP'').
    The private sector data shows much longer wait times than CBP 
data--particularly for the most extensive delays. The difference is 
associated with the fact that CBP calculations customarily only 
includes time spent in the primary inspection lane, while ignoring time 
spent on backed-up roads approaching the primary inspection lane or 
time spent on secondary inspections. These measuring discrepancies need 
to be addressed, so the severity of delays and their causes can 
properly be assessed.\5\
---------------------------------------------------------------------------
    \5\ The Secure Borders Open Doors Advisory Committee (``SBODAC'') 
to the Departments of Homeland Security and State issued a report which 
recommended that metrics should take a more prominent role in both 
departments' operations. ``Report of the Secure Borders Open Doors 
Advisory Committee,'' January 2008 (Pages 35, 38-42) http://
www.dhs.gov/xlibrary/assets/hsac_SBODACreport508-
compliant_version2.pdf. Perhaps this Committee will consider proposing 
the creation of a private sector advisory board to oversee the 
implementation of the recommendations made in the SBODAC report and new 
recommendations as we move forward.
---------------------------------------------------------------------------
    Congress should appropriate funding for the development of an 
automated border wait time tracking system. Providing an accurate, 
independent and universal method of measuring border wait times is 
essential to the creation of staffing models, the proper allocation of 
resources, and to improve security while facilitating trade. Last year, 
CBP implemented a system called Automated Wait Time Data at all of its 
major airports. The Chamber applauds this effort and recommends that 
CBP takes similar steps on our land ports of entry. A truly objective 
system will provide CBP with the knowledge needed to effectively manage 
the border.

    b. Travel Promotion Act
    In a post 9/11 world the buildup of certain regulation and security 
procedures have signaled to the international community that the U.S. 
is closed for business, particularly for tourism and business 
conferences. During this time of great international economic crisis it 
is imperative that we do not create barriers to conducting business and 
visiting the U.S. for legitimate purposes. On a daily basis, the 
international media attacks the U.S. for not appropriately balancing 
security and efficiency. Tourists often feel unjustly interrogated. 
Businesses would rather export two hundred employees from the U.S. for 
a conference, rather than have the fifty employees from overseas go 
through the arduous process of crossing into the U.S. These perceptions 
have a profound impact on tourism, conferences, business and 
consequently our economy as a whole.
    For this reason, we believe it is imperative for Congress to enact 
the ``Travel Promotion Act,'' which the House passed last year in a 
bipartisan effort. The United States has some of the greatest natural 
treasures in the world. However, changes in regulation and process have 
lead to confusion and downright resistance of the international 
community from visiting.
    Legitimate travelers should feel welcome in the United States, and 
we need a program to ensure that occurs. This is difficult to do when 
there is lack of transparency concerning implementation plans and 
almost no concerted outreach to the traveling public regarding upcoming 
changes in requirements for border crossings. The Travel Promotion Act 
would address several of these issues by establishing a well-funded 
public-private outreach campaign to improve the efficient dissemination 
of new U.S. entry and exit policies.

    c. Fully Staffing CBP and Upgrading the Infrastructure
    Currently, inadequate staffing, reduced or changing hours of 
service, mandates for secondary inspection of some products, new fees, 
and outdated infrastructure at our land ports of entry are leading to 
long delays with a significant economic impact on businesses, without 
increasing security.
    We should reconsider some of the new fees and inspections that have 
been imposed, increase funding for CBP to guarantee adequate staffing 
and extended hours of service, and upgrade our technology and 
infrastructure, so CBP officers can more efficiently monitor the flow 
of people and commerce. The ``Putting Our Resources Towards Security'' 
Act (``PORTS Act'' H.R. 1655) was introduced by Representative 
Silvestre Reyes, and is a step in the right direction. The Chamber 
encourages members of this Subcommittee to consider cosponsoring this 
legislation.
        The PORTS Act would:
                <bullet> provide for 5,000 additional CBP officers, 
                allowing for an increase in total officers by 
                approximately 30 percent over five years;
                <bullet> provide for 350 additional support personnel 
                and 1,200 agriculture specialists at CBP, which will 
                help ensure officers will not be pulled away from 
                inspection duties to perform specialized or 
                administrative work;
                <bullet> authorize $5 billion over five years for the 
                General Services Administration (GSA) to address 
                infrastructure deficiencies at our land ports of entry. 
                GSA and CBP will be required to work together to 
                prioritize repair work.

Western Hemisphere Travel Initiative
    Implementing WHTI without addressing the existing border delays and 
the additional pressures that WHTI imposes fail to address the economic 
costs and security risks associated with having long lines of trucks 
idling at the busiest ports of entry. Many improvements have already 
been accomplished, but there is work to be done.

    a. Implementation Timeline
    The Chamber continues to reiterate the need for rational and 
measured implementation of new border crossing requirements. President 
Bush and Congress agreed that securing our nation's borders is 
something that needs to be done correctly--rather than expeditiously--
to avoid unnecessarily harming our economy. On January 4, 2008, 
President George W. Bush signed the Consolidated Appropriations Act of 
2008 (H.R. 2764) into law, which provided the Administration at least 
until June 1, 2009, to develop alternatives to a passport for use in 
land and sea ports of entry.
    Great progress has already been made in developing enhanced 
driver's licenses (``EDLs'') to be acceptable at land and sea ports of 
entry. Furthermore, DHS and the Department of State (``DOS'') unveiled 
a federally issued, wallet-sized, lower-cost alternative to a U.S. 
passport, the U.S. passport card. In addition, Canadian provinces have 
also started issuing EDLs.
    On Tuesday of this week, Ontario announced that it will begin 
issuing EDLs. This is significant because almost 35 million passenger 
cars cross the Ontario/U.S. border each year.
    The Chamber does not believe further delay of WHTI implementation 
is necessary, but it would like to see improvements in the program. The 
Chamber also urges DHS to practice flexibility, particularly during the 
initial period of full implementation.

    b. Education/Marketing Campaign
    Congress and the Administration acknowledged when granting the 18-
month extension that for WHTI to be successful, with minimum economic 
disruption, it required an aggressive campaign to educate the general 
public. Regrettably, last year DHS testified that its best education/
marketing tool on WHTI was all the negative publicity it was getting in 
the media--ignoring the economic consequences of making the U.S. a less 
desirable destination.
    On a positive note, this year, the Office of Public Affairs at CBP 
has been more active in getting the information out by seeking to work 
collaboratively with stakeholders. It has created a more useful tool 
kit, which includes an easy to use Web page, which links directly from 
the stakeholders' site. The Chamber is already making use of the tool 
kit to let its members know of the new changes.
    Getting here has not been easy. The implementation of WHTI created 
a great deal of confusion for many travelers and businesses. While it 
appears that border crossers are aware of the upcoming deadline, 
confusion remains with regard to the actual requirements. For example, 
many families believe that all children need a passport even when 
traveling with their parents and, thus, many would be visitors are 
abandoning travel plans that require crossing the border.
    Once again, the Chamber believes that enactment of the Travel 
Promotion Act would help prevent similar issues from occurring in the 
future. The 2010 Olympics are to be held in Vancouver, British 
Columbia, and implementing this important legislation would be a 
critical step to ensure successful travel throughout these Olympics.
    Due to the overwhelming popularity, media exposure, and close 
proximity of the games, it would be a wasted opportunity to fail to 
capitalize on the Olympics being held, literally, next door to the U.S.

    c. Cost Analysis
    The analysis done by DHS concentrates on travel and tourism and 
does not address the larger concerns of the business community, which 
include the impact on commerce in general. DHS has said that it will 
not conduct a more robust economic analysis. However, there is a study 
underway at the Government Accountability Office (``GAO'').
    As stated, the primary mission of DHS includes ensuring that the 
overall economic security of the United States is not diminished by 
efforts, activities, and programs aimed at securing the homeland. Thus, 
DHS should look into the GAO report, or conduct a new more 
comprehensive economic impact analysis of its own, and determine what 
changes in WHTI implementation could be made to alleviate any negative 
economic impact.

    d. Pilot Programs
    In the future, before pushing for full implementation of changes in 
travel requirements, pilot programs need to be performed to assess the 
potential impact on cross-border commerce, thus, making sure full 
implementation does not negatively affect our economy and security. A 
minor pilot test of WHTI at a 65% review rate in the port of entry of 
El Paso caused major delays, but, without Congressional intervention, 
DHS attempted to move ahead without proper preparation.
    Every attempt must be made to avoid the chaos, long lines, and 12-
week paperwork backlogs that were created in 2006 with the hurried 
implementation of the WHTI air rules. Again, the problem then was 
exacerbated by an infrastructure that was not in place and by the lack 
of an efficient public-awareness campaign.
    Despite the business community's warnings, the government was not 
prepared for the changes it made in policy. Pilot programs help address 
concerns before the damage is done. Specifically, for land ports of 
entry, pilot programs need to address infrastructure and staffing 
requirements with an emphasis on future plans for full implementation 
and technological requirements. The test results must be transparent 
with recommendations to ensure operational success in the future.

    e. U.S. Citizen Cruise Ship Passengers
    The Chamber is pleased that DHS and DOS, in the final rule, 
recognized the difference in demographics between the international 
airline traveler and those traveling in an uninterrupted-loop cruise 
originating in the U.S. While international airline travelers generally 
have a high level of passport ownership, the ratio of passport 
ownership for sea cruise travelers is closer to the U.S. population at 
large, which is significantly lower, especially for those travelers 
taking short (two to five days) Caribbean cruises.
    This industry would have suffered economic harm--without any 
apparent improvement in security--had the change not been made between 
the proposed rule and the final rule. The Chamber supports the 
alternative document requirements in the final rule for U.S. citizens 
departing and reentering U.S. territory on board the same cruise ship.

    f. Travel by Children Under Age 16
    Since 2005, when WHTI was first announced, the Chamber has been 
calling for flexibility in the document requirements for children. 
Children in both the United States and Canada have the lowest passport 
ownership rate of any demographic group. The implications of improper 
implementation in this area are broad, and include legitimate travel by 
families with children, children on school day trips, and children 
participating in cross-border sport activities.
    The Chamber strongly supports the alternative document requirements 
created for U.S. and Canadian citizen children under the age of 16. 
However, the Chamber continues to recommend that the alternative be 
applied to children ``Age 16 and Under,'' and not as currently stated 
in the final rule as children ``Under Age 16.''
    DHS and DOS recognize, that ``it is difficult for the majority of 
children under 16 to obtain a form of government-issued photo 
identification'' and also ``age 16 is the age that DOS begins to issue 
adult passports, valid for 10 years, instead of 5 years for children.'' 
However, given that neither government-issued photo identifications nor 
adult passports arrive automatically in the mail on a child's 16th 
birthday, allowing children age 16 to travel under the alternative 
procedure would give them the time needed to apply for the appropriate 
documentation.

    g. Travel by Groups of Children Under Age 19
    The Chamber successfully called for language found in Section 546 
of the Department of Homeland Security Appropriations Act of 2007, 
requiring the certification by DHS and DOS that an alternative 
procedure for groups of children be created. The Chamber supports the 
alternative procedure found in the final rule for ``Children Under Age 
19'' traveling as part of school groups, religious groups, social or 
cultural organizations, or teams associated with youth sport 
organizations. However, this alternative procedure should be applicable 
to groups traveling by air, not just those arriving at U.S. sea or land 
ports of entry.
    The language found in Section 546 clearly calls for an alternative 
procedure to be developed for groups of children traveling across ``an 
international border.'' Section 546 makes clear distinctions when the 
requirements are to apply only to land and sea ports of entry. While 
the statute clearly calls for availability of the passport card only 
for use at land and sea ports of entry before final WHTI 
implementation, it also clearly calls for an alternative procedure 
``for groups of children traveling across an international border'' 
with no restriction based on the ports of entry type.

    h. Outer Continental Shelf Employees
    Chamber member companies received differing and conflicting 
information with regard to document requirements for workers aboard 
Mobile Offshore Drilling Units (``MODUs'') attached to the United 
States Outer Continental Shelf (``OCS'') traveling from the U.S. to and 
from MODUs. The Chamber sought the clarification and standardization of 
the procedures that now appear in the final rule.
    Thus, the Chamber supports the more official clarification 
contained in the final rule, which plainly states that the WHTI 
requirements do not apply when traveling from the U.S. to and from 
MODUs in the OCS. Once again, had WHTI been applied to these group of 
workers, it would have negatively impacted this industry without any 
security benefit.

    i. Individual Cases of Passport Waivers
    The Chamber has been calling for passport waivers to be provided in 
cases of emergencies, such as ``volunteers responding to fires and 
emergencies across the border (an everyday occurrence).'' The Chamber 
strongly supports the description in the final rule of the possible 
waivers to be granted in a case-by-case basis. Also, the explicit 
acknowledgement that CBP has the authority to temporarily admit non-
immigrant aliens into the United States on a temporary basis in case of 
a medical or other emergency is welcomed.
    The Chamber believes that CBP should proactively confer with local 
emergency responders in border areas to help facilitate entry 
procedures into the United States when emergencies occur. Of particular 
importance are groups such as fire fighters that respond to cross-
border calls, emergency workers that would respond in a natural 
disaster, Medivac personnel, and others that deal with emergencies 
where even a few minutes could make the difference between life and 
death.

    j. Passport Card
    The new passport card, also known as the PASS card, is a wallet-
sized alternative to a U.S. passport designed to facilitate efficient 
and secure cross-border travel at land and sea ports of entry under 
WHTI. The Chamber advocated for the development of this alternative and 
continues to urge the U.S. government to make it truly economical to 
obtain and acceptable at all ports of entry, including air. For it to 
be a true substitute to a U.S. passport under WHTI, the passport card 
should be accepted at air ports of entry as well as the proposed land 
and sea ports of entry.
    Also, the application fee at first blush seems reasonable, $20 for 
adults and $10 for minors (under age 16). However, applicants applying 
in person have to pay an additional ``execution fee'' of $25. Many 
applicants are required to apply in person and are, thus, subject to 
this fee, for example, first time adult passport applicants, all 
minors, adults holding expired passports issued more than 15 years 
previously or when the bearer was a minor, and those applying for 
replacement passports that have been lost, stolen, or mutilated.
    In addition, there is currently a fee of about $15 for pictures 
taken at the government application center. Thus, what starts as a $20 
alternative to the $115 passport ($75 application fee, $25 execution 
fee, and $15 picture fee) becomes a $60 alternative ($20 application 
fee, $25 USD-execution fee, and $15 picture fee). These costs do not 
take into consideration expediting fees, given the time frame for 
production of a passport card is no shorter than for a passport.\6\
---------------------------------------------------------------------------
    \6\ Also see ``Finding the Balance: Reducing Border Costs While 
Strengthening Security,'' February 2008 (page 18), http://
www.uschamber.com/publications/reports/0802_finding_balance.htm.
---------------------------------------------------------------------------
    The cost of the passport card should be $20 for adults and $10 for 
minors, regardless of whether it is a renewal or original application, 
if it is truly to be an economical substitute to a passport. It should 
also not be burdened with the same additional ``fees'' and ``charges'' 
already imposed on passport applications, e.g., there should be no 
execution or picture fee. Furthermore, special discounts should be made 
available to families applying for several cards at a time. The Chamber 
understands that the $25 execution fee is paid to the Post Office or 
county clerk who acts as the acceptance agent for the U.S. passport or 
passport card paperwork.
    One approach to avoid the execution fee would be to have CBP deploy 
staff to high demand areas to accept and verify identity documents and 
applications. This would be particularly helpful in border communities. 
CBP occasionally deploys officers to businesses to accept and process 
applications for trusted traveler cards, such as NEXUS, via what they 
call mobile enrollment teams. Finally, the time frame for production of 
a passport card should be significantly shorter than for a passport, 
increasing its appeal and eliminating the need to increase its cost 
even further with expediting fees.

    k. Enhanced Drivers' Licenses
    The Chamber supports the decision by DHS and DOS to officially 
announce that documentation such as the Border Crossing Card (``BCC''), 
the Secure Electronic Network for Travelers Rapid Inspection 
(``SENTRI'') card, NEXUS card, and the Free and Secure Trade (``FAST'') 
card will become acceptable substitutes for a passport.
    However, as the Chamber has stated since 2005, these documents 
still require a special discretionary form of identification solely for 
border crossing purposes and, in the case of NEXUS, SENTRI and FAST, 
are significantly more difficult to obtain than a passport. Thus, the 
Chamber continues to call for the acceptance of a ``document that is as 
close to being non-discretionary as possible,'' in particular, enhanced 
driver licenses.
    The Chamber applauds the departments' continued commitment ``to 
considering travel documents developed by the various U.S. States and 
the Governments of Canada and Mexico,'' particularly since they can be 
issued by a ``State, tribe, band, province, territory, or foreign 
government if developed in accordance with pilot program agreements.''
    Following in the footsteps of the state of Washington, the states 
of Vermont, New York, and Arizona have signed such an agreement with 
DHS to create EDLs that will be WHTI compliant. In Canada, the 
provinces of British Colombia and Ontario have also begun issuing EDLs 
to its residents.
    The Chamber looks forward to more states, provinces, and 
territories joining in. DHS and DOS should continue to work on 
expanding these WHTI compliant driver licenses and state 
identifications for land and sea border crossings. The Chamber is 
concerned that currently there is not a critical mass of WHTI-compliant 
EDLs in circulation. This could result in many tourists and business 
people avoiding cross-border travel.
    EDLs denote identity and citizenship, while containing vicinity 
radio frequency identification (RFID) technology and other security 
features. They hold significant potential to serve as a less expensive 
and more practical form of documentation than a passport. EDLs are 
vital to ensuring WHTI is smoothly implemented and the security needs 
of North America are met without impeding the movement of people, 
goods, and services across the border.
    However, as with the passport card one of the limitations of the 
EDLs is its acceptance only for land and sea border crossings and not 
air crossings. Hence, an EDL would be useless for a person who might, 
cross the border by automobile, but needs to return by air. A broader, 
more universal acceptance of the EDLs is needed to facilitate travel in 
all modes of transportation within the WHTI area.\7\
---------------------------------------------------------------------------
    \7\ The U.S. Chamber of Commerce along with the Canadian Chamber of 
Commerce released a report which emphasized the importance of EDLs and 
recommended that there is a need for rapid deployment, a broad 
communications plan, as well as that EDLs should be accessible for air 
travel. ``Finding the Balance: Reducing Border Costs While 
Strengthening Security,'' February 2008 (page 17), http://
www.uschamber.com/publications/reports/0802_finding_balance.htm.

Conclusion
    In the final rule, DHS stated that it intended to fully implement 
WHTI on June 1, 2009, the earliest possible date, because it considered 
it in the best interest of national security--with no mention of 
economic security. The Chamber believes that more emphasis needs to be 
placed on doing it right versus doing it fast. The Chamber continues to 
ask DHS to recognize the need to advance the dual objectives of 
enhancing security and improving economic prosperity, which are 
mutually reinforcing.
    Border management policy has a tremendous economic impact not just 
on border communities or the travel and tourism sector, but on our 
economy at large. North America has the largest trading relationship in 
the world and it all relies on the efficient movement of goods, 
services and people across our northern and southern borders.\8\ For 
America's economy to grow and remain competitive in the global market, 
we need to address the deteriorating problems at our borders and ensure 
that programs like WHTI do not exacerbate the problems we are trying to 
fix.
---------------------------------------------------------------------------
    \8\ Canadian-American Business Council, ``The Economic Benefits of 
NAFTA,'' April 2008.
---------------------------------------------------------------------------
    The Chamber greatly appreciates the excellent relationship we have 
developed with this Committee and we hope to continue and expand that 
relationship in the future. I wish to thank you for this opportunity to 
share the views of the U.S. Chamber of Commerce and our broad 
membership concerned with WHTI and efficient border management. I look 
forward to your questions.

    Mr. Green. [Presiding.] Thank you. The chair expresses her 
regret. She had to step away momentarily.
    We will now recognize the gentle lady from Texas for 5 
minutes, Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank the chair very much, and I 
hope I will make a strong effort to be brief. My opening 
remarks will simply be that I think this program requires our 
study of assessment. I think all of us can recall when we were 
inundated by constituents, who were in line trying to get 
passports when this was first coming in.
    Let me just quickly ask--and I look forward to working with 
the witnesses and working with the chair to help make this 
better and ensure that there is an outreach by the government.
    Ms. O'Connell and Mr. Amador, just give me one fix that 
would improve this program.
    And as you do that, I will conclude by saying, as a member 
of the House Judiciary Committee--I don't know if you are 
talking about the House or Senate--I know the members work very 
hard and consider ourselves very competent. We will certainly 
try to work on what I think is a competent staff, but we want 
to make sure that they work with you. Thank you.

  Prepared Statement of the Honorable Sheila Jackson Lee, Chairwoman, 
 Subcommittee on Transportation Security and Infrastructure Protection

    Mr. Chairman, I thank all of the individuals testifying today. this 
hearing will examine the implementation of the Western Hemisphere 
travel initiative at land and sea ports. I welcome today's witnesses 
and I look forward to hearing their insight on the implementation of 
the programs.
    Prior to 2007, little or no documentation was required to enter the 
United States from Canada, Mexico, Bermuda, or the Caribbean. In 
December 2004, with the 9/11 Commission recommending tighter borders to 
help prevent another terrorist attack, Congress passed the Western 
Hemisphere Travel Initiative (WHTI), which would eventually require 
passports for anyone entering the United States.
    After the January 2007 implementation of phase I of the new 
passport regulations (requiring passports when entering by air), the 
Department of State was deluged with passport applications. The time 
necessary to get a passport expanded form the typical four to six weeks 
to several months, ruining many Americans' travel plans.
    On January 31, 2008, another change occurred. Government-issued 
proof of identity and citizenship documents are required to enter the 
United States from Canada, Mexico, Bermuda, and the Caribbean, 
according to the Department of Homeland Security. People under the age 
of 18, however, will be required to present only proof of citizenship, 
such as a birth certificate.
    Phase II adds to the existing requirements that travelers have 
passports for all land and sea crossings, U.S. or Canadian children 
under the age of 16, however, will be allowed to present an original or 
copy of their birth certificate or other proof of citizenship. Groups 
of U.S. or Canadian children under the age of 19, when traveling in 
church or school groups, social groups, or sports teams, and when 
entering under adult supervision, also can present birth certificates 
or other proof of citizenship, rather than a passport. Phase II will be 
implemented on June 1, 2009.
    This hearing will examine how effective implementation has been. 
Again, I welcome the panelists today and I look forward to their 
insightful testimony.
    Thank you Mr. Chairman. I yield the balance of my time.

    Ms. Jackson Lee. Ms. O'Connell?
    Ms. O'Connell. Yes, ma'am. I think the one fix that what is 
needed in addressing your question is we need resources. We 
need the staff and the infrastructure. It is a huge challenge.
    Just to give you a picture, you have the port of entry. You 
have an officer that is sitting there and in 30 seconds or less 
has to make a decision--
    Ms. Jackson Lee. Right.
    Ms. O'Connell. Move forward. And yet they only open maybe 
70 or 60 percent of the booths. I am giving you an example on 
the U.S.-Mexico side. They don't have enough staff to open all 
the booths. They have to be trained to these new programs, so 
they need more staff resources. They can also----
    Ms. Jackson Lee. And training. And I have been there, so I 
am very familiar with how that is.
    Ms. O'Connell. Yes, that is----
    Ms. Jackson Lee. Thank you.
    Ms. O'Connell. The training, because that is very important 
and, well, there are stories about that.
    But then the infrastructure side. When you have two main 
bridge, and you have the Mexico, the SENTI program, but you 
don't have more lanes that you cannot open more, because they 
are not resurfaced, then that is a challenge.
    And my biggest concern on that, Madam Representative, is 
the power from the Congress. You give speeches, and you provide 
us, and you want the economy to work. And here are some of the 
cash registers of the country, and yet you only give us $720 
million out of $835 billion that are generated. I cannot 
emphasize that more enough.
    So if one thing to remember, I guess, from this is more 
resources that they can have----
    Ms. Jackson Lee. Thank you very much. Thank you.
    Mr. Amador?
    Mr. Amador. I will just say that, by the way, Nora 
Rappaport is still a good friend of mine, and the staff on that 
committee, Judiciary and Immigration, is very competent. 
However, they don't seem to work in a bipartisan fashion as 
well as this committee, and I wish the Immigration staff 
committee in particular would be more bipartisan in looking for 
fixes.
    The number one suggestion I would have is really making the 
passport card affordable and make it really a true substitute 
for travel----
    Ms. Jackson Lee. Right.
    Mr. Amador. --on the land borders.
    Ms. Jackson Lee. Let me thank you. And I know that all the 
fixes that you have indicated will be looked upon. And 
certainly, try the immigration subcommittee again. And sure 
they will work with you.
    I yield back. I thank the gentleman for his kindness.
    Mr. Green. Thank you.
    And witnesses, we thank you for appearing. There may be 
additional questions. The record will be open. We ask that 
members of additional questions will respond expeditiously, and 
that you respond to the questions expeditiously.
    Again, thank you. You are excused. And hopefully we are, 
too.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]


                             For the Record

                               __________

                        Questions and Responses

Questions from the Honorable Loretta Sanchez, Chairwoman, Subcommittee 
            on Border, Maritime, and Global Counterterrorism

                    Responses from Dr. Richard Barth

    Question 1.: June 1 signaled the start of WHTI implementation at 
land and sea ports of entry.
    What data are you collecting from the field to monitor WHTI 
compliance, wait times, and enforcement actions?
    What are the results to date?
    Response: The Western Hemisphere Travel Initiative (WHTI) Program 
Management Office (PMO) stood up the WHTI Operations Center (WOC) to 
act as the liaison and support center for the field. On June 1, 2009, 
the WOC held conference calls with the field every four hours and once 
daily from June 2 and beyond. The conference calls provided an 
opportunity for the field to report the impacts of the WHTI 
implementation, to include wait times and enforcement actions. The WHTI 
PMO also tracked WHTI compliance and reported out to the field on 
compliance levels observed.
    The WHTI PMO continues to monitor and report various metrics 
regarding the WHTI implementation, to include the following on a 
national scale and broken down by northern and southern borders:
        <bullet> Compliance Rates
        <bullet> Peak and Average Wait Times
        <bullet> Enforcement Actions

As of June 22, 2009:
        <bullet> The national compliance rate was 94.6%; the average 
        since 6/1/2009 was 94.7%.
        <bullet> The northern border compliance rate was 97.8%; the 
        average since 6/1/2009 was 97.4%.
        <bullet> The southern border compliance rate was 92.2%; the 
        average since 6/1/2009 was 92.1%.
        <bullet> Field locations reported no discernable wait time 
        impacts attributed to WHTI.
        <bullet> Field locations are reporting no significant change in 
        the number of enforcement actions.

    Question 2.: Many members of American Indian tribes with territory 
along our nation's borders have historically crossed the border using 
their tribal identification documents. However, a majority of these 
tribal cards are not WHTI-compliant.
    How many tribal identification cards meet WHTI requirements 
currently?
    Response: There are currently no tribal identification cards that 
have been enhanced to meet WHTI requirements.
    In spring 2007, CBP sent letters to all 562 federally recognized 
tribal entities soliciting comments for the WHTI land and sea 
rulemaking process and received 42 comments, reflecting primarily those 
tribes within the northern and southern border regions. On March 3rd, 
2009, CBP and the Kootenai Tribe of Idaho signed the first Memorandum 
of Agreement (MOA) for the development of an Enhanced Tribal Card 
(ETC). Upon successful development, testing and issuance, this document 
will be available to members of the Kootenai Tribe of Idaho to 
establish their identity, tribal membership and United States or 
Canadian citizenship for the purposes of border crossing. Currently, 
CBP has two signed MOAs and is in various stages of negotiation with 10 
tribes to produce a MOA for the ETC. The approval of additional MOAs is 
expected shortly.
    The option of producing an ETC is available only to U.S. federally 
recognized tribes. Tribal identification for members of Canadian First 
Nations is done through a single Canadian Government entity, Indian and 
Northern Affairs Canada (INAC). INAC is currently working with DHS to 
have their new tribal identification card, the Secure Certificate of 
Indian Status (SCIS), accepted as a stand-alone WHTI compliant 
document.

    How is DHS working with interested tribes to develop enhanced 
tribal identification cards that would comply with WHTI?
    Response: DHS has been consulting with the tribes on WHTI for the 
past two years. In 2007, U.S. Customs and Border Protection (CBP) sent 
a letter to all the U.S. federally recognized tribal entities advising 
them of the opportunity to comment to the WHTI Land/Sea Final Rule. 
Based on comments received from the tribes, and in consideration of the 
unique relationship between the federal government and tribal entities, 
DHS included in the WHTI Land/Sea Final Rule an option whereby tribes 
may enhance their tribal identification cards in a manner that CBP 
concludes is sufficient to denote identity and citizenship under WHTI. 
Similar to the enhanced driver's license initiatives with the states, 
CBP and the tribes work off a sample memorandum of agreement (MOA) that 
serves as a starting point for negotiations, CBP provides continuous 
operational and IT guidance to the tribes on the development of an ETC 
program.
    In April 2008, CBP sent a letter to all the U.S. federally 
recognized tribal entities inviting them to work with CBP to produce 
such an enhanced tribal identification card (ETC). Since that time, 
CBP, in consultation with the tribes, has developed a detailed 
presentation on the legal, business, and information technology aspects 
of the ETC initiative. Throughout 2008, CBP attended numerous tribal 
conferences across the United States to provide the ETC presentation to 
the tribes and tribal groups that indicated an interest in pursuing an 
ETC.
    Based on the enhanced driver's license (EDL) initiatives with the 
states, CBP has drafted a template memorandum of agreement (MOA) 
between CBP and the tribes that will serve as a starting point for 
negotiations. CBP provides continuous legal, operational and IT 
guidance to the tribes on the pursuit and successful creation of an 
ETC.

    What type of documentation can tribal members use until a WHTI-
compliant tribal identification card is developed?
    Response: On May 15, 2009, DHS informed the U.S. federally 
recognized tribal entities that they could continue to use their 
current tribal photo identification card for a reasonable transition 
period beyond June 1, 2009, to enter the United States at the land and 
sea ports of entry. The transition was for all travelers, not just 
tribes.

    Question 3: RFID readers are installed and operational at the 39 
largest land ports of entry, which covers roughly 95 percent of cross 
border-traffic. The Committee is concerned about potential 
vulnerabilities and delays should this equipment break down.
    What type of contingency plans do you have in place to ensure that 
a broken RFID reader will not pose a vulnerability to security or 
impede traffic?
    Response: Each WHTI lane has two RFID readers, one in the lane 
(Pre-primary) and one at the booth (Primary). They are designed to work 
in conjunction with each other so that in the event that one breaks 
down, the other will capture RFID reads for presentation to the officer 
in the booth. There is redundancy in each lane. If a reader identifies 
a fault, it reports that problem to a monitoring system which is 
watched by a team of maintenance analysts. If it is determined that the 
reader is reporting faults at a level that can affect performance, 
troubleshooting steps are taken which can include actions up to 
dispatching a technician to the site. In addition, optical character 
read (OCR)/Machine readable zone (MRZ) readers are in place at all 
ports of entry that can read any WHTI-compliant document whether or not 
the travel document has RFID technology. In the unlikely event that 
both readers are down, officers can perform the appropriate MRZ (manual 
mode) reads at the booth, so there is no vulnerability
    The readers require minimal regular maintenance. On a quarterly 
basis the prime contractor (Unisys Federal Systems) will have the RFID 
readers and antennas checked for proper operation.
    There is a Service Level Agreement in place with Unisys that 
requires rapid response to perform appropriate maintenance and repair 
to hardware. The responding Regional support teams are located 
throughout the country.

    What type of maintenance do these new RFID readers require and who 
will be responsible for the maintenance?
    Response: The maintenance of the WHTI RFID and LPR system is a 
vendor designed maintenance process and the responsibility of the prime 
contractor, Unisys Federal Systems, and its subcontractors (``Team 
Unisys''). Team Unisys provides all necessary management, supervision, 
labor, and materials to perform remedial, preventive, and accidental 
maintenance (maintenance service outside the scope of remedial 
maintenance) of the WHTI LPR & RFID units, in accordance with the 
requirements contained in the WHTI Statement of Work and the program's 
Maintenance Support Plan approved by Unisys and CBP. All maintenance 
and sustainability support for the WHTI contract is covered under a 
fixed price contract. Team Unisys will perform problem diagnosis and 
defect isolation, and provide qualified technical personnel, materials, 
travel and materials shipping to provide the required warranty and 
maintenance support in order to maintain the WHTI LPR & RFID units.
                               __________

                      Responses from John Brennan

Question 1.: There has been some concern about the State Department's 
ability to issue passports and passport cards in a timely manner. 
Please describe how the Department of State is responding to this 
concern. What kind of expedited options exist?

    Answer: In Fiscal Year 2007, the State Department experienced a 
major increase in demand and issued 18.4 million passports, which 
remains the historic high for passport issuances in a single year. 
During this surge in demand, the State Department had difficulty 
issuing passports in a timely manner.
    To address underlying concerns with passport production capacity, 
the Department has since increased resources for passport production by 
95 percent. We have added both staff and facilities, including opening 
two large passport book production centers in Hot Springs, Arkansas, 
and Tucson, Arizona, and new passport agencies in Detroit and 
Minneapolis. A third agency will open in Dallas in July. Later this 
summer, we will also open a new ``omega-adjudication center'' in 
Tucson. This center will become one of four such facilities across the 
country, notable because they are larger and have greater production 
capabilities than a traditional passport agency. We expanded existing 
facilities along the southern and northern borders, such as the Miami 
Passport Agency and the National Passport Center, in Portsmouth, New 
Hampshire. In addition, during demand surges, the Department now has 
the technical capability to allow passport applications to be 
adjudicated by qualified consular staff remotely at posts abroad and at 
passport facilities anywhere in the country.
    Throughout 2008 and thus far in 2009, we have maintained our 
standard service level of four to six weeks for routine service and two 
to three weeks for expedited service. Expedited service is available to 
all applicants for an additional fee of $60. If a customer requests 
delivery of the passport by overnight service, an additional service 
fee of $14.85 per application is assessed. Customers who have urgent or 
emergency travel needs may schedule a walk-in appointment at one of our 
17 public agencies through an automated appointment hotline provided by 
our customer call center, the National Passport Information Center.

Question 2.: What efforts has the State Department undertaken to 
facilitate applications for passports? Are there any plans to accept 
applications at or near ports of entry or in communities where there is 
high demand for WHTI-compliant documents?
    Answer: There are more than 9,400 acceptance facilities across the 
country, such as post offices and courthouses, where Americans can 
apply for a U.S. passport. There are 301 acceptance facilities located 
within 25 miles of the U.S.-Canada border and 128 acceptance facilities 
located within 25 miles of the U.S.-Mexico border.
    We opened new passport agencies in Detroit in March and Minneapolis 
in May of this year. Both are designed to serve important population 
centers near the northern border. In the next 12 to 18 months, we plan 
to open additional agencies in Dallas, El Paso, San Diego, Buffalo, and 
Vermont, and offer services to the public at the National Passport 
Center in Portsmouth, New Hampshire, and at the Arkansas Passport 
Center in Hot Springs, Arkansas. We have looked specifically at 
locations near communities with high demand for WHTI-compliant 
documents. These locations are also near major ports-of-entry.
                               __________

                  Responses from Maria Luisa O'Connell

    Questions: 1. Your organizations provide a forum for a variety of 
stakeholders from business and industry, community groups, trade 
organizations, port employees, and individuals who use the ports every 
day to share their thoughts on border matters.
    What have you heard from your membership about the recent 
implementation of WHTI at land ports?
    On the first day of implementation, Border Trade Alliance (BTA) 
launched TWHTI, an interactive campaign to encourage travelers to share 
their experiences crossing the border. By logging onto their 
Twitter.com accounts, users could search #WHTI to share information and 
read about the current status of implementation efforts. The majority 
of stakeholders reported a smooth transition, with port directors on 
both borders reporting a compliance rate of over 95%.

    Do you have any additional recommendations for DHS or State 
regarding successful implementation? Are there any elements that are 
currently being overlooked?
    What may be overlooked is the number of travelers who are choosing 
to not cross the borders because they have not yet obtained the 
required documents due to cost, inconvenience or difficulty in 
obtaining the necessary documents required for a passport. It may be 
beneficial to note the decrease in pedestrian and vehicular traffic 
over the past two years. As mentioned before, border residents, the 
trade and business communities and the travel industry had already felt 
the impact of WHTI before the implementation of its final phase on 
June, 1, 2009.
    It has also been reported to the BTA that smaller communities are 
having difficulty processing passport applications because the local 
post offices are overwhelmed with applicants. These communities have 
identified the need to have more offices that are authorized to handle 
passport applications. Some communities have taken the initiative to 
look into alternate locations within the city, but were informed that 
certain city departments do not qualify because the same offices that 
issue birth certificates or government identifications cannot issue 
passports. Recommendations for this specific issue are listed under a 
different question under the passport drives or mobile offices. An 
alternative solution may be have DOS inform these communities of the 
availability of appropriate alternative locations that can be used to 
facilitate passport applications.

    Question 2.: As you know, the goal of WHTI is to strengthen border 
security and facilitate entry for legitimate travelers. However, a 
large portion of our pots of entry facilities date back 50 years or 
more in some cases. In addition, staffing at ports of entry have not 
kept pace with the need for personnel in recent years.
    What needs to be done to improve port of entry infrastructure at 
our borders?
    More resources need to be allocated towards maintenance and 
upgrades at the land ports of entry. It is also necessary to allocate 
more resources to DHS Customs and Border Protection (CBP) that will be 
directed towards recruitment and staffing needs. Increasing the number 
of lanes and inspection booths at the ports of entry is only beneficial 
when there is adequate staffing to operate the booths.
    In addition, the need for new ports of entry and their associated 
infrastructure, e.g. bridges, lanes, inspection booths, etc., adjacent 
to existing border crossings should be thoroughly reviewed by CBP, the 
General Services Administration, the Department of Transportation, 
state and local government, Congress and local stakeholders. While 
upgrades of existing land ports of entry are necessary to maintain 
current crossing volumes, consideration of the development of new land 
ports of entry is warranted considering the historic trend of increased 
trade and commercial activity at our shared borders with Canada and 
Mexico. There exists a strong need for a collaborative federal, state, 
local and private plan for accommodation of future infra-structural 
needs at our borders to facilitate the expected growth in trade and 
cross-border commercial activity, which is an integral component of our 
national economic viability.
    The BTA supports legislative efforts, such as H.R. 1655, the Ports 
Act and others, that increases resources and staffing needs, as well as 
those that commission studies to measure wait times (H.R. 1965). The 
BTA also supports the inclusion of language into annual appropriations 
bills that direct agencies such as GSA to consult with communities and 
stakeholders in expansion plans and project selection and incorporates 
the interests of community residents as well as the business community.

    What staffing levels are necessary to enhance security and 
facilitate travel?
    The BTA supports increased staffing levels at U.S. land ports for 
at least enough to fully staff existing vehicular and pedestrian 
traffic lanes. More funding for overtime pay is likely necessary until 
adequate staffing levels are reached so that the lanes do not have to 
be closed during port operating hours. H.R. 1655, authorizes funding 
for increased CBP personnel to fully staff all U.S. land ports of 
entry.

    Question 3.: Your organizations have advocated for the acceptance 
of the low-cost, wallet-sized passport alternative, referred to as the 
passport card, as well as other current secure traveler documents such 
as NEXUS and SENTRI cards and the new Enhanced Drivers' Licenses (EDL) 
to be accepted at land border crossings as alternatives to a passport.
    What more can be done to promote the use of these kinds of 
documents among the traveling public?
    Increasing the interoperability of WHTI compliant documents would 
promote greater use. Currently, PASS Cards are secure documents that 
satisfy WHTI requirements to cross the U.S. international land borders. 
Despite being more secure than a driver's license, PASS Cards cannot be 
used as identification for air travel within the United States. 
Allowing PASS Cards to be used for air travel to Canada, Mexico, the 
Caribbean and Bermuda may also encourage travelers to obtain the PASS 
Card, since it is the lower cost alternative to the passport.
    DOS could consider passport application drives in border 
communities and consider expediting the passport applications as an 
incentive for increased participation.
    DOS should perform an ongoing assessment and evaluation of what 
geographic areas or regions are handling the greatest volume of 
passport or PASS Card applications and determining whether those areas 
fully able to handle this volume of applications. Using this 
information DOS can then quickly dispatch the necessary resources to 
process passport and PASS card applications in areas of greatest need.
    DOS should consider utilizing mobile passport offices, especially 
in rural communities along the U.S. borders with Canada and Mexico and 
in communities where DOS has experienced high application volumes would 
greater enhance the ability of U.S. citizens to readily obtain the 
necessary documentation in a timely manner. Several BTA members have 
reported that it is now necessary to travel well into the interior to 
places such as San Antonio, Texas or Phoenix, Arizona to be able to 
obtain an appointment to apply for a U.S. Passport or PASS Card as 
facilities at the border, primarily U.S. Post Offices, are unable to 
handle the high application volumes.
    DHS and State should also consider expanding the acceptance of the 
PASS Card under WHTI for air travel within North American and the 
Caribbean to provide increased incentive for U.S. citizens to apply for 
these documents.

    What other ``outside the box'' alternatives could enhance both 
security and facilitation at our ports of entry?
    DHS should consider having SENTRI cards apply to persons and not 
just vehicles. Currently SENTRI has to apply to the person and their 
specific vehicle, and if you're not in the SENTRI-approved vehicle you 
are not allowed to cross via a dedicated SENTRI lane. Altering the 
SENTRI program in this manner would also allow for the development and 
use of low-risk pedestrian lanes at U.S. land ports.
    DHS could also consider opening SENTRI to bus operators, who could 
have their buses and drivers approved as SENTRI card holders and then 
transmit in advance of their arrival at the border, a manifest of their 
passengers to CBP to expedite the transit of these high-occupancy 
vehicles.
    With dedicated federal funding through Congress, DHS could expand 
its initial pilot and consider 24-hour ports of entry at ports with 
high crossing volumes.
    DHS, and perhaps this committee in its oversight role, needs to 
undertake a comprehensive review of the multiple layers of security 
programs and procedures in place for both people and cargo crossing the 
border. Best-practices between programs should be shared to promote a 
more effective and efficient, secure crossing experience. Duplicative 
or repetitive programs could be merged or eliminated and cost-saving 
efficiencies could be identified within the ongoing management of 
federal security programs.
                               __________

                    Responses from Thomas Winkowski

    Question 1.: In your testimony, you described a conference to train 
Customs and Border Protection officers about procedures for 
implementing WHTI at ports of entry. What other steps have you taken to 
provide appropriate WHTI training to every Customs and Border 
Protection officer at land ports of entry?
    Response: CBP HQ has been in communication with its field offices 
about WHTI since publication of the final rule in April 2008. Most 
recently, in addition to a conference to train Customs and Border 
Protection (CBP) officers about procedures for implementing WHTI at 
ports of entry, implementation guidance was disseminated to all CBP 
officers on May 14, 2009, that outlined the document requirements, 
operational procedures, and contingency plans in the event travelers 
fail to present WHTI-compliant documents. Included in the guidance to 
officers in the field was a script to use when giving a verbal advisory 
to travelers not in compliance with the WHTI land/sea documentary 
requirements. In addition, on May 15, 2009, mandatory training was 
distributed to all officers including supervisors, managers, port 
directors, public affairs officers, and trainers working at land and 
sea ports of entry. The presentation outlined the document 
requirements, operational procedures, and certain exceptions regarding 
the June 1 implementation of WHTI for land and sea travel. As of June 
2, approximately 10,967 CBP officers had completed the mandatory 
training. (The term CBP officers encompasses managers, port directors, 
agriculture specialists, and CBP officers who work in cargo and 
passenger operations.) Officers not at their port between May 15 and 
June 1 due to travel, training, leave or details away from the port, 
are required to complete the training in order to resume working at the 
port. As these officers return and complete the training, the number 
continues to increase.

    Question 2.: Have you made any staffing changes in light of WHTI 
implementation, particularly for the first few months of implementation 
when both CBP officers and the traveling public will be getting used to 
the new requirements and procedures? If so, please describe these 
changes.
    Response: Yes. The Western Hemisphere Travel Initiative (WHTI) 
brought 205 new positions to the field during fiscal year 2008, and CBP 
is in the process of augmenting the field with an additional 89 
positions this fiscal year (82 already filled).
    Field managers ensured senior leadership and officers were properly 
placed in appropriate numbers to anticipate any impact from WHTI, to 
include traveler impacts, media inquiries, and Congressional interest 
(and redeployed staff as needed.)
    At CBP Headquarters, the WHTI Program Management Office (PMO) 
brought in the Port Director from Sault Ste. Marie, Michigan to stand 
up the WHTI Operations Center (WOC). The WOC was operational on May 29, 
2009, and was staffed by CBP HQ personnel redeployed from the WHTI PMO 
and other HQ program offices. These staffing changes included moving 
employees from their core hours to cover a 24/7 operation until the 
closure of the WOC on June 7, 2009.
    The result of the above staffing changes was a successful 
implementation, with no discernable impact to wait times. The field is 
seeing high compliance by those U.S. and Canadian citizens queried at 
the land borders. Media reporting was neutral to positive.

    Question 3.: Please update the Committee on the projects started 
with the approximately $700 million dedicated to improving port of 
entry infrastructure in the American Recovery and Reinvestment Act of 
2009.
    Response: Of the $720 million of American Recovery and Reinvestment 
Act (ARRA) funds dedicated to improving land ports of entry (LPOE), 
$420 million was appropriated to CBP to address modernization needs 
within the CBP-owned LPOE inventory; the remaining $300M was 
appropriated to the General Services Administration (GSA) to address 
modernization needs at GSA-owned LPOEs. CBP established a jointly 
staffed Program Management Office (PMO) made up of operational, 
financial and technical experts from CBP and partner agencies such as 
the U.S. Army Corps of Engineers (USACE) and GSA, to manage and track 
the progress of the LPOE modernization efforts. The LPOE PMO has made 
significant accomplishments against a fast-track schedule and remains 
on target to award design/build contracts under the ARRA consistent 
with August 2009 program goals.
    In preparation for contract award, the PMO has achieved the 
following:
        <bullet> Secured head-of-contracting approval for the program-
        wide acquisition plan
        <bullet> Prepared a compressed schedule, acquisition strategy, 
        and spend plan
        <bullet> Drafted Interagency Agreements (IAA) with GSA and 
        finalized IAA with USACE
        <bullet> Developed prototype layouts and universal technical 
        specifications for the micro and small port design templates
        <bullet> Identified the 23 CBP-owned LPOEs targeted for 
        modernization under ARRA
        <bullet> Initiated environmental, vendor and cultural site 
        visits and began to publish draft environmental assessments for 
        public review.
        <bullet> Prepared Request for Proposal (RFP) packages for 
        distribution.
        <bullet> Coordinated with the U.S. Department of State, U.S. 
        Department of Transportation (DOT), International Boundary and 
        Water Commission (IBWC), and the affected state departments of 
        transportation.
        <bullet> For the CBP-owned LPOEs not targeted for major 
        construction, the PMO has initiated engineering surveys and 
        developed a Repairs and Alterations (R&A) strategy to implement 
        programmatic work packages focused on: security and port 
        hardening, site utilities and infrastructure, emergency 
        repairs, and mission enhancements. The schedule for R&A 
        projects has been finalized and the PMO is on schedule to 
        finalize the R&A technical packages by early July.
        <bullet> Made significant efforts to communicate LPOE 
        modernization opportunities to small businesses through ARRA 
        reporting, and Small Business Outreach Sessions.
    In coming weeks, the PMO will finalize its IAA with GSA. For the 
design/build projects, the program will release RFPs, complete 
outstanding cultural site visits, and finalize technical requirement 
packages for all projects. Additionally, draft environmental 
assessments and Findings of No Significant Impact (FONSI) will be 
issued. For R&A projects, the PMO will initiate the procurement process 
for the technology upgrades and finalize the technical requirement 
packages.
    As previously stated, of the $720 million in ARRA funding, $300 
million was appropriated to GSA to address the modernization needs of 
the GSA-owned LPOEs. Specifically, seven projects received funds for 
site acquisition, design, and/or construction. Unlike the CBP-owned 
inventory, these funds target projects already under development for 
purposes of accelerating their delivery timelines and securing 
additional resources to meet CBP's operational needs. CBP is 
coordinating closely with GSA on the following projects to ensure they 
move forward expeditiously in the spirit of the ARRA:
        <bullet> Nogales West, AZ: Full construction funds were 
        allocated for GSA to accelerate project timelines with 
        construction currently slated to begin in early FY 2010.
        <bullet> Otay Mesa, CA: With site/design funds allocated, GSA 
        is now pursuing site acquisition to expand the port along with 
        initiating the program development study for CBP to evaluate 
        design concepts
        <bullet> Van Buren, ME: With design and construction funds 
        allocated, GSA and CBP have accelerated the planning phase 
        targeting a design/build contract award in mid-FY 2010.
        <bullet> Madawaska, ME: Additional funds were provided for GSA 
        to supplement on-going design in preparation for construction 
        start in late-FY 2010, pending passage of the President's 
        Budget.
        <bullet> Blaine-Peace Arch, WA: Construction escalation funds 
        were provided to better target full project completion by 
        November 2010.
        <bullet> Calais-St. Stephen, ME: Construction escalation funds 
        were provided to better target full project completion by 
        November 2009.
        <bullet> Columbus, NM: Additional design funds were provided 
        for CBP and GSA to re-initiate the previously stalled design 
        phase in preparation for FY 2011 construction, pending 
        availability of funds.
    Ultimately, the $720M in ARRA funds appropriated for CBP-owned and 
GSA-owned LPOEs will contribute significantly to CBP's broader mission 
to modernize the entire LPOE inventory. The ultimate goal of the LPOE 
Modernization Program is to improve these critical assets to better 
meet CBP's mission to secure the nation's border while facilitating 
legitimate travel and trade.

                                 <all>

</pre></body></html>
